                                                     SENSITIVE BUT UNCLASSIFIED



                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General
Office of Inspector General


                                                  Office of Inspections


                                                      Inspection of 

                                                 Embassy Berlin, Germany


                                           Report Number ISP-I-11-65A, September 2011




                                                                 Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be made,
                               in whole or in part, outside the Department of State or the Broadcasting Board of
                               Governors, by them or by other agencies of organizations, without prior authorization
                               by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                               may result in criminal, civil, or administrative penalties.




                                                     SENSITIVE BUT UNCLASSIFIED

                              SENSITVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE AND METHODOLOGY

                           OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •		 Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •		 Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •		 Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.

This was an inspection of Mission Germany but not of the internal operations of the many
Department regional support centers based at Consulate General Frankfurt. The programs of those
centers are generally controlled by bureaus in the Department and they will be inspected separately
in the future.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSFIED


                                                Table of Contents
Key Judgments .............................................................................................................................1

Context .........................................................................................................................................2

Executive Direction......................................................................................................................3

  Communication Problems and Performance Issues .................................................................4

  Leadership in the Consulates General ......................................................................................5

  Future of Consulates General in Germany ...............................................................................5

  Rightsizing ...............................................................................................................................9

  Security ..................................................................................................................................11

  First- and Second-Tour Program............................................................................................12

Policy and Program Implementation..........................................................................................13

  Political and Economic Reporting and Advocacy..................................................................13

  Public Affairs Section ............................................................................................................16

  Consular Affairs .....................................................................................................................22

Resource Management ...............................................................................................................30

  Management Overview ..........................................................................................................31

  Financial Management ...........................................................................................................31

  Human Resources...................................................................................................................34

  Language Training .................................................................................................................39

  General Services.....................................................................................................................39

  Facilities Management ...........................................................................................................46

  Safety, Health, and Environmental Management...................................................................49

  Information Management and Information Security..............................................................50

Quality of Life............................................................................................................................59

  Equal Employment Opportunity and the Federal Women’s Program....................................59

  Community Liaison Office.....................................................................................................61

  Commissary and Recreational Association............................................................................62

  Overseas Schools ...................................................................................................................63

  Health Unit.............................................................................................................................64

Management Controls ................................................................................................................65

  Consular Management Controls.............................................................................................66

List of Recommendations...........................................................................................................67

List of Informal Recommendations............................................................................................75

Principal Officials ......................................................................................................................78

Abbreviations .............................................................................................................................80





                                                         iii

                                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSFIED





Key Judgments

   •		 Mission Germany is advancing U.S. interests across a full spectrum of issues and is
       strengthening the U.S-German partnership. The relationship is on a sound footing that
       reflects our shared values and interests. The Ambassador’s extraordinary public outreach
       efforts have played a key role in these accomplishments.

   •		 Leadership problems within several sections of the embassy and at three of the consulates
       general have damaged morale and undercut performance. Some allegations of racial and
       sexual harassment within the mission have not been addressed effectively.

   •		 Consulate General Dusseldorf and Consulate General Hamburg should be retained but
       downsized. Consulate General Leipzig should be closed.

   •		 The embassy’s section chiefs rarely visit the consulates general, leaving those staffs with
       insufficient oversight. The management section needs to give mentoring and more
       guidance to consulate officers handling management duties.

   •		 The mission’s economic and political reporting has kept Washington officials well-
       informed on key issues and helped them to formulate sound policy decisions.

   •		 Consular operations are generally well run. The largest consular section in the country in
       Frankfurt should be downsized by three American officer positions.

   •		 A major cut in the public diplomacy budget and staff in 2010 left staff morale problems,
       but the public affairs sections are adjusting by placing new emphases on social media and
       using local partners to pick up some traditional functions of Information Resource
       Centers.

   •		 Interagency cooperation in law enforcement, commercial promotion, and political-
        military issues is strong and effective.

   •   The information management program meets the basic needs of a diverse customer base,
       but information managers need to provide better oversight and collaboration.

The inspection took place in Washington, DC, between April 18 and May 6, 2011; in Berlin,
Germany, between May 9 and June 29, 2011; in Frankfurt, Germany, between May 17 and June
3, 2011; in Hamburg, Germany, between May 24 and 27, 2011; in Dusseldorf, Germany,
between June 9 and 12, 2011; in Munich, Germany, between June 7 and 15, 2011; and in
Leipzig, Germany, between June 10 and 15, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED





Context

        Mission Germany comprises the largest U.S. diplomatic presence in Europe, reflecting
the strong, cooperative relationship between the two countries on an array of international issues,
the continued presence of some 50,000 U.S. troops on German soil, extensive commercial,
academic and other private-sector ties, and Germany’s increasingly influential role in the
European Union.

       The country’s importance was highlighted during the inspection by its center stage role
addressing the debt crisis in Greece, a successful and highly publicized visit by the German
Chancellor to Washington, Germany’s agreement to provide development assistance to Libya
once the situation there stabilizes, and its leading role in discussions over the future of nuclear
power following the Fukushima disaster. Mission Germany’s long agenda includes these issues
and many more.

        In addition to the embassy in Berlin, the United States maintains five consulates general,
including Frankfurt, which serves as a platform for management support throughout Europe,
Africa, and the Middle East. With more than 900 staff, Consulate General Frankfurt is larger
than Embassy Berlin and most other embassies. Smaller consulates general are located in
Dusseldorf, Hamburg, Leipzig, and Munich and a consular agency is located in Bremen. The
mission’s budget is the largest in Europe.

       Mission Germany’s priorities include expanding diplomatic, economic, and security
cooperation; promoting U.S. commercial interests; providing consular services to visa applicants
and approximately 185,000 U.S. citizens resident in Germany; and engaging in extensive public
outreach, particularly to German youth born after the Cold War and to Germany’s large Muslim
population.

        The inspection team focused on how well the embassy and the consulates general
function as a team to advance these goals. The inspection team also addressed the costs and
benefits of retaining five consulates general in Germany. Finally, the team focused on general
management practices, including measures to maintain high professional standards of conduct.

        This was an inspection of Mission Germany but not of the internal operations of the many
Department regional support centers based at Consulate General Frankfurt. The programs of those
centers are generally controlled by bureaus in the Department and they will be inspected separately
in the future.

       Mission Germany includes 756 U.S. direct-hire staff and 860 local staff at the embassy
and consulates general. The ratio of Americans to local staff is unusual and is a result of 35
regional offices based in Frankfurt. Thirty U.S. agencies and subagencies are represented at the
mission; the Department is the largest. The Departments of Defense, Homeland Security, and
Commerce also maintain large offices in the mission.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





Executive Direction

       Mission Germany excels in diplomatic achievement and public outreach but has been
hindered by leadership and internal communications shortcomings. The mission could be even
more effective if it addressed these issues.

        Led by a tireless Ambassador with excellent diplomatic skills, Mission Germany is
strengthening U.S. relations with Germany across the board. The Ambassador, backed by
officers with extensive experience and keen understanding of Germany, has capitalized on
President Obama’s popularity among the German people. He has focused the embassy on a
broad array of core diplomatic issues from increasing cooperation in Afghanistan and managing
the negative fallout from Wikileaks to strengthening measures against terrorist financing and
identifying common ground on contentious issues like Libya and data privacy. Embassy
leadership has also identified and funded new areas of potential cooperation, including scientific
collaboration on climate change and energy. Chancellor Merkel’s successful visit to Washington
during the inspection was emblematic of the key role the embassy is playing to further bilateral
relations.

        The Ambassador and the deputy chief of mission (DCM) have effectively worked
through the interagency process to register diplomatic successes. Law enforcement cooperation
is strong, with extensive informal communication as well as formal coordination meetings
chaired by the DCM. The Ambassador and DCM work closely with senior U.S. military
commanders in Germany as well as the embassy’s large Defense attaché office, which arranged
two visits by the Ambassador to German troops stationed in Afghanistan. Both visits lent
credibility to the Ambassador’s public remarks on the importance of Germany’s presence there.
The Ambassador has also devoted considerable effort to promoting U.S. commercial interests;
several senior officers in the mission and in the Department described his efforts as among the
best they had ever seen.

        In addition to core diplomatic work, the Ambassador engages in a heavy schedule of
public outreach, including speeches and public remarks to audiences that included political and
business elites, high school students, journalists, and soldiers. Twenty-six percent of these were
outside Berlin, reflecting his goal that public outreach cover the country. The five consuls
general and a number of reporting officers also pursue a heavy schedule of public addresses—
often in German.

        The Ambassador’s non-stop schedule and his style of work have contributed to a stressful
front office. Despite a large front office staff of nine office management specialists, staff
assistants, and protocol specialists, much of the embassy is geared to supporting the
Ambassador’s outreach activities, often at the expense of other important work. At the inspection
team’s suggestion, the front office staff is drafting new procedures designed to reduce the
amount of time needed to effectively staff the Ambassador.

       The DCM and the Ambassador work well together. The DCM chairs small daily staff
meetings, many of which are devoted to positioning the Ambassador for success. He conducts
many of the mission’s senior-level demarches. The DCM is liked and appreciated by the
                                           3
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




embassy staff, is accessible, and effectively synchronizes the embassy to the Ambassador’s
needs. The latter’s needs are taxing, however, and consume too much of the DCM’s time. Many
problems identified by the OIG team might have been solved if the DCM had had more time to
manage the mission. The Ambassador and the DCM agreed that the Ambassador needs to
empower the DCM to spend more time attending to the internal management of the mission.

Communication Problems and Performance Issues

        Some of the most serious management shortcomings involved poor communication, both
within the embassy and between the embassy and the consulates general. One serious
communication breakdown involved an employee in Hamburg who had been engaging in verbal
harassment, including racial epithets against coworkers for more than 3 years. Several American
officers had been aware of the problem but they had not addressed it. This problem is discussed
further in the section of the report on Equal Employment Opportunity (EEO).

       Major policy issues were also the subject of communication breakdowns. The embassy
decided to consolidate financial management operations from Frankfurt to Berlin but did not
keep the consul general in Frankfurt aware of the status of those plans. The consul general
learned about the final decision almost 2 weeks after it had been made in Berlin.

        Consulate General Frankfurt failed to communicate with the embassy when it held a
major ceremony honoring the employees who had supported evacuees from Embassy Cairo in
early 2011. Although the embassy was unaware of the event, many consulate employees were
pained by what they perceived to be a slight by the Ambassador in not participating in it.

      The OIG team found leadership problems in Hamburg, Dusseldorf, and Leipzig. The
embassy was unaware of the issues in Dusseldorf and Leipzig due to inadequate monitoring by
embassy officials of morale conditions in the constituent posts.

         One cause of poor communication between the embassy and the constituent posts has
been an insufficient number of visits by front office leaders and section chiefs to the consulates
general. The Ambassador has a busy schedule traveling around Germany and the applicable
consul general accompanies him when he is in a consular district. However, the Ambassador
rarely visits the consulates general and most staff members do not interact with him. The DCM
makes fewer trips to the constituent posts; when he does, he spends the bulk of his time on
outside calls. When he meets with the staff it is usually in town hall meetings; in such settings it
is difficult to sense morale problems.

        Most of the Department section chiefs in Berlin travel even less. In the year prior to the
inspection, for example, the public affairs officer did not visit any of the consulates general even
though they were experiencing morale problems following several reductions in force in 2010. In
the previous year, the minister-counselor for political affairs visited Leipzig and Munich but not
the other posts. Visits by section chiefs to Dusseldorf and Leipzig were especially infrequent.

        The embassy needs to establish a schedule of regular visits by the DCM and embassy
section chiefs to the consulates general. The frequency of visits should be guided by the
functions at each post. The minister-counselor for management affairs, the regional security
officer, and the public affairs officer should visit each consulate general at least two times per
                                                   4
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




year. The economic and political ministers-counselor should visit the smaller consulates general
at least once per year, with more frequent visits to Frankfurt and Munich. The minister-counselor
for consular affairs should make quarterly visits to Frankfurt and Munich. (These issues are
addressed in the consular affairs section of this report.)

Recommendation 1: Embassy Berlin should establish and implement a schedule of regular
visits by the deputy chief of mission and embassy section chiefs to the consulates general.
(Action: Embassy Berlin)

       A second serious management problem has been the ineffective handling of conduct and
performance issues. In two cases, the OIG team prepared corrective evaluation reports on
employees whose shortcomings had not been addressed in the employee evaluation reports they
had received immediately prior to the inspection.

Leadership in the Consulates General

        Although the OIG team found leadership problems in Hamburg, Dusseldorf, and Leipzig,
it found good leadership in Frankfurt and Munich. In the case of Consulate General Frankfurt,
the consul general is assisted by a deputy principal officer in leading the largest constituent post
in the world, with over 900 employees. Frankfurt is a regional support center for many functions
for posts throughout Europe, the Middle East, and Africa. The fact that morale was high in such
a large staff is a testament to the leaders.

       Morale at Consulate General Munich was also high. It is a smaller post, with 91
employees, but the OIG team commended the consul general for the depth of his knowledge
about the employees and the issues at this post.

Future of Consulates General in Germany

        The United States maintains five consulates general in Germany, more than the United
States has in any other country in Europe. Missions Russia and Italy are the next largest with
three each. Mission France has two consulates general plus four small American presence posts.
The inspection team examined the missions performed by each consulate general, the associated
costs, and whether lower-cost alternatives exist. The examination mirrored similar efforts by the
Bureau of European and Eurasian Affairs and the embassy to identify potential savings in
mission operations. An embassy study of the potential savings that would result from downsizing
three of the consulates general was particularly useful.

        The inspection team concluded that Consulate General Leipzig should be closed at the
earliest opportunity and that Consulate General Dusseldorf and Consulate General Hamburg
should be kept open but significantly downsized. U.S. Government-owned property in Hamburg
should be sold as the consulate general is downsized. These recommendations will result in an
annual savings of approximately $4.7 million, not counting the sale of property or reductions in
U.S. direct-hire staffing.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





Consulate General Frankfurt

        Consulate General Frankfurt is larger than all but a handful of U.S. embassies and is even
larger than Embassy Berlin. Some 85 percent of the staff work in offices that primarily provide
regional administrative and communications support. Seven law enforcement agencies have
offices in Frankfurt, most with extensive regional responsibilities throughout Europe. The
remainder of the consulate general’s staff focuses on bilateral issues, including providing full
consular services, promoting U.S. trade and investment, analyzing political trends, covering
economic developments at Frankfurt-based banks and financial institutions, and engaging in
extensive public outreach. The consulate general is a key component of the U.S. diplomatic
presence in Germany.

Consulate General Munich

         Consulate General Munich has a staff of 34 Americans and 57 local staff. Its consular
district includes Munich—Germany’s third largest city—and the state of Bavaria. The post
provides consular services throughout southern Germany, reports on political and economic
developments in the politically influential state of Bavaria, and works closely with U.S. military
commanders to address issues related to the presence of approximately 20,000 U.S. troops in
Bavaria. The consulate general also hosts a large Foreign Commercial Service office that works
with established industrial concerns as well as new high-tech firms to promote U.S. exports and
inward investment. The number of export successes reported from Munich this year was second
only to Frankfurt. The consulate general also manages the participation of a large, Cabinet-level
U.S. delegation in Munich’s annual security conference, which is attended by government and
private-sector leaders from around the world. Thirty-two countries maintain consulates general in
Munich, including China, France, the United Kingdom, Japan, and Iran. These factors justify a
continued U.S. presence in Munich.

Consulate General Dusseldorf

        Consulate General Dusseldorf has had a disjointed history. The post opened in 1951 and
closed in 1987 for budgetary reasons. After the decision by the German Government to move the
capital from Bonn to Berlin, the rationale for Dusseldorf (which is close to Bonn) became more
compelling, and the consulate general reopened in 1994 under the leadership of the Foreign
Commercial Service. In 2006, Department officers resumed leadership of the consulate general.

       The consulate general is located in the German industrial heartland, 113 miles from
Frankfurt, with a primary mission to promote U.S. commercial interests. It is staffed by three
American officers, including one from the Foreign Commercial Service, and 18 local staff, six of
whom are with the Foreign Commercial Service. Seventeen countries maintain consulates
general in Dusseldorf, including Canada, France, the United Kingdom, and Japan—all focused
on commercial issues. China has eight separate trade promotion offices in the city.

       Much of the consulate general’s trade promotion revolves around 12 global trade fairs
held annually in Dusseldorf and neighboring cities. Exhibitors at these large fairs target markets
around the globe, not just Germany. Consulate General Frankfurt has a large staff devoted to
commercial promotion, but they made a convincing case that it would be difficult to assist U.S.
                                               6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




exhibitors at these trade fairs from Frankfurt. An on-the-ground presence is necessary. In
addition to trade promotion, the consulate general does economic and political analysis of
developments in North Rhine-Westphalia, the most populous German state. The consulate
general engages in outreach programs with the region’s large Muslim population. The inspection
team found commendable performance in all three areas, but it is the commercial function that
most justifies maintaining a continued diplomatic presence in Dusseldorf. Reporting could easily
be scaled back or supported by Berlin or Frankfurt, which is scheduled to add a second reporting
officer in 2012. Successful minority outreach could continue even with a smaller staff.

        Dusseldorf’s 2011 operating budget was $3 million, excluding U.S. salaries and other
centrally funded expenses. The OIG team believes that Consulate General Dusseldorf should be
retained but with a smaller footprint. The United States does not own property in Dusseldorf, so
no sale of property is required as part of the downsizing.

Recommendation 2: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should downsize Consulate General
Dusseldorf with a view toward reducing annual operating expenses by $1 million. (Action:
Embassy Berlin, in coordination with EUR and DGHR)

Consulate General Hamburg

        Consulate General Hamburg is located in Germany’s second largest city and largest port,
approximately 180 miles from Berlin. It is the largest of Germany’s three small consulates
general, with a staff of five officers and 16 local staff. Another 11 Department of Homeland
Security officers are stationed in nearby Bremerhaven but are not considered part of the
consulate general’s staff. The Foreign Commercial Service ended operations in Hamburg in
2007. The Department discontinued consular services there the same year. Thirty-four countries
have an official diplomatic presence in the city, including China, France, India, Iran, Japan, and
Russia.

        The consulate general’s primary missions are to report on political and economic
developments (including piracy and terrorism), conduct public outreach, and support export
promotion. The consulate general spends considerable time on outreach programs to Muslims
and other minorities. The inspection team looked at performance in each of these areas. While
reporting was extensive—more than 20 cables covered local elections in March 2011—some of
the most important cables were written by a political officer on temporary duty from Berlin;
others were of limited value. The consulate general actively engages in commercial promotion, a
fact noted with appreciation by Department of Commerce officials in Washington. The key has
been an active consul general who maintains close contact with Department of Commerce
officials elsewhere in Germany and who regularly attends trade fairs and other promotional
events.

        The consulate general’s operating expenses in 2011 were approximately $4 million. This
figure does not include the salaries of Department officers, language training, and other centrally
funded expenses. Offices occupied by the consulate general are U.S. Government-owned and are
substantially underused as a result of staffing cuts over the years. The U.S. Government also
owns the consul general’s residence.

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED



        The inspection team concluded that Hamburg’s importance as a major port and its
political influence in the city justify a continued U.S. diplomatic presence, but with a smaller
footprint. One potential model is a “consulate lite” template prepared by Embassy Berlin that
would reduce the American staff from five employees to two and local staff from seventeen to
five. This and other models should be considered as part of the downsizing effort.

       A Bureau of Overseas Buildings Operations (OBO) estimate from April 2009 put the net
value of the Hamburg consulate offices at $10.5 million.

Recommendation 3: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should substantially downsize Consulate
General Hamburg with a view toward achieving savings of $2 million annually in operating
expenses. (Action: Embassy Berlin, in coordination with EUR and DGHR)

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin and the Bureau of European and Eurasian Affairs, should sell the U.S.
Government-owned consulate general offices in Hamburg and lease office space for Consulate
General Hamburg. (Action: OBO, in coordination with Embassy Berlin and EUR)

Consulate General Leipzig

        Consulate General Leipzig was opened in 1992, shortly after German reunification. The
only U.S. diplomatic post (other than Berlin) located in the former East Germany, the consulate
general was conceived as providing the United States with a window into eastern Germany, a
role that is less vital now than it was 20 years ago. Russia is the only other country that maintains
a consular presence in Leipzig.

        The consulate general has a staff of three Americans and 12 local staff—all Department
employees. No other U.S. agency is present at post. The consulate general provides reporting on
political issues in eastern Germany and serves as a useful platform for public diplomacy
programs aimed at audiences less familiar with Americans and American values than their
counterparts in other regions in Germany. Although both functions have value, they could be
handled by the large reporting and public diplomacy staffs based at Embassy Berlin, 93 miles
away.

        Consulate General Leipzig had an operating budget of $2.7 million in 2011, not counting
U.S. salaries and other centrally funded expenses. The inspection team concluded that the
consulate general’s importance is insufficient to justify this expense given Embassy Berlin’s
nearby location.

Recommendation 5: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Berlin and the Office of Management Policy, Rightsizing, and Innovation, should
develop and implement a plan to close Consulate General Leipzig at the earliest practical
opportunity. (Action: EUR, in coordination with Embassy Berlin and M/PRI)

       Downsizing Consulates General Hamburg and Dusseldorf and closing Consulate General
Leipzig will require the embassy and the consulates general in Frankfurt and Munich to assume
additional reporting and public diplomacy responsibilities. The downsizing effort will also
                                               8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




require Mission Germany to redefine its support and coverage of the provinces covered by these
posts.

Recommendation 6: Embassy Berlin should prepare a written plan outlining how it will
provide management support and reporting and public affairs coverage when Consulate General
Leipzig is closed and Consulates General Dusseldorf and Hamburg are downsized. (Action:
Embassy Berlin)

Rightsizing

        Embassy Berlin is scheduled to submit a rightsizing report by December 2011. The last
report was completed in fall 2007. In early 2011, based on guidance the Department sent
worldwide, the embassy eliminated positions that had been vacant for more than 1 year. This
report will also address the vacant space the mission currently has in the Clayallee annex in
Berlin and at Consulate General Hamburg.

        All agencies proposing to add a position overseas must complete what is known as a
National Security Decision Directive-38 (NSDD-38) proposal which delineates why the position
is needed and whether it will be located in the chancery or other Department-run facility or in the
field. All NSDD-38 requests to Mission Germany are vetted by a working group headed by the
minister-counselor for management to determine the effects and the pros and cons that the
position would have on the mission and its objectives. The Ambassador plays an effective role
reviewing NSDD-38 requests. He has turned down three requests and has said that two others
will probably be denied. He has approved other positions that the embassy determined to be
necessary for national security or other reasons.

        Operations in Consulate General Frankfurt, which had been scattered throughout
numerous buildings in the city, were consolidated into one large facility in 2005. This building, a
former military hospital complex purchased and remodeled at a cost of $79.7 million, was
designed as both a bilateral consulate general and a hub for agencies with regional
responsibilities. The facility is nearing capacity, although some space remains available. The
Ambassador, looking at ways to increase occupancy in the Clayallee annex in Berlin, has
suggested that some regional agencies could be located in Berlin rather than Frankfurt. The OIG
team believes that all regional offices should remain in Frankfurt given the excellent facilities
there and the fact that Frankfurt is a major airport hub.

        The embassy has eliminated 29 local staff positions and instituted a hiring freeze in
anticipation of future budget constraints. During this inspection, the team determined that several
other positions should be eliminated, reprogrammed, or transferred to another embassy. These
recommendations should save approximately $3.3 million.

        The political section in Embassy Berlin has three office management specialists: two are
Foreign Service while one is a locally hired American with a security clearance. The inspection
team concluded from interviews with section staff and a review of their duties that the section
should eliminate one Foreign Service office management specialist position when the
incumbent’s tour is completed in 2013. This would bring the section’s support staff in line with
the larger economic section, which has only two office management specialists. Eliminating this
entry-level position will save an estimated $567,000.
                                                9
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED





Recommendation 7: Embassy Berlin, in coordination with the Bureau of Human Resources,
should eliminate position 10073002, FP-06, office management specialist when the incumbent’s
tour is completed in 2013. (Action: Embassy Berlin, in coordination with DGHR)

        Mission Germany has two information management officers: one in Embassy Berlin and
the other in Consulate General Frankfurt. Information management officers are normally
responsible for oversight of a mission’s information management program. Having two officers
in one mission who are designated as information management officers is undermining
communication and collaboration within the mission and with outside entities. The latter are
often unclear as to which officer has overall responsibility. The mission would be better served
by having one information management officer based in Berlin. Eliminating the position in
Frankfurt would save approximately $550,000.

Recommendation 8: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should abolish information management
officer position number 55233001 in Consulate General Frankfurt and realign the information
management staffing in Frankfurt. (Action: Embassy Berlin, in coordination with EUR and
DGHR)

        Consulate General Frankfurt’s political-economic section is staffed by one American
reporting officer and three full-time local specialists. A second American reporting officer is due
to be assigned to the section in 2012. The OIG team discussed with the consul general the need
to reduce, through attrition, one of the three local staff positions in the political-economic section
once the second officer is in place.

        The financial management center consolidation (discussed in the resources management
portion of this report), which occurred during this inspection, reduced the number of employees
supervised by the FS-01 financial management officer in Frankfurt. The consolidation also
reduced the complexity of the financial management officer’s job and the amount of duties. This
position could be eliminated, saving $550,000, or reprogrammed.

Recommendation 9: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should reprogram or eliminate, upon the
departure of the incumbent, the FS-01 financial management officer position in Consulate
General Frankfurt. (Action: Embassy Berlin, in coordination with EUR and DGHR)

        The consular section in Frankfurt is the largest in Germany, with an FE-OC consular
section chief, an FS-01 visa chief, an FS-02 American citizens services chief, an FS-02 regional
federal benefits officer, and three FS-03 officers. The latter manage the nonimmigrant visa,
immigrant visa, and passport units. The regional federal benefits officer has responsibilities for
federal benefits programs in several European countries. Therefore, that position should not be
considered as part of the core group of six managerial positions. The OIG team consulted with
the Bureau of Consular Affairs about consular staffing in Frankfurt and concluded that two
consular manager positions should be eliminated. Eliminating these positions will result in an
estimated savings of $1.1 million.


                                           10
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Recommendation 10: The Bureau of Consular Affairs, in coordination with the Bureau of
European and Eurasian Affairs and the Bureau of Human Resources, should eliminate two mid-
level consular officer positions from the consular section in Frankfurt and create a plan for how
the grade levels of the remaining positions should be realigned. (Action: CA, in coordination
with EUR and DGHR)

        Seven consular officers are assigned to the nonimmigrant visa unit for a workload that
was 48,303 cases in FY 2010. That ratio of officers to workload is higher than the ratios in other
busy nonimmigrant visa operations. The staffing issues in Frankfurt relate more to two factors:
staffing gaps created when officers do not arrive as scheduled because they are unable to pass the
German language test in the Foreign Service Institute and need to be extended in their language
training and a highly seasonal workload with the heaviest demand in the spring and summer. One
officer observed that: “The section is staffed for the 2 peak months, including LE staff, and is
underemployed for the rest of the year.”

       Staffing needs for the peak season can be addressed through other means, such as
temporary duty employees. The consular section in Frankfurt has been providing temporary duty
support to other posts in recent years, an indication that the section in Frankfurt is overstaffed.
Eliminating one entry-level position from Frankfurt’s consular section would result in a savings
of $551,000.

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate an entry-level officer position from the consular section in
Frankfurt. (Action: CA, in coordination with DGHR)

         Although this inspection did not look at the regional offices, one position stood out. The
information resources officer sits in public affairs but is a regional officer who answers to the
Bureau of International Information Programs. The officer’s area of operations covers Germany,
the Baltics, and Switzerland. Following the restructuring of the public affairs section due to
budget cuts and the earlier closure of the Amerika Haus library/cultural centers, there is no
strong reason for leaving that regional position in Germany. The bureau is considering moving
this regional position to Russia. Although the regional officer contributes to teacher and librarian
training and is a source of advice to the Germany public affairs staff, the OIG team does not see
her continued location in Berlin as the best use of resources. Transfer of this position would
result in a better use of $551,000.

Recommendation 12: The Bureau of International Information Programs, in coordination with
the Bureau of European and Eurasian Affairs and the Bureau of Human Resources, should
review and transfer the information resource officer position in Berlin to another embassy where
a realigned country support portfolio would be a better use of that position. (Action: IIP, in
coordination with EUR and DGHR)

Security

      A separate annex to this report discusses Embassy Berlin’s strong security measures.
However, there needs to be more contact between the Ambassador and regional security
management, including improved oversight of the Marine detachment in Berlin. A formal

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




recommendation in the security annex calls for better coordination between Embassy Berlin and
the regional Marine commandant in Frankfurt.

        American staff in several sections told inspectors that the embassy’s escort policy
frequently required them to interrupt their work simply to escort visitors to the chancery. The
issue, discussed more fully in the classified annex to this report, is under review.

First- and Second-Tour Program

        The DCM is responsible for mentoring first- and second-tour personnel. He has met with
them to discuss issues such as bidding for onward assignments and the Department’s evaluation
process, and the Ambassador has hosted several brainstorming sessions with them. The front
office also seeks to include first- and second-tour personnel in social events hosted by the
Ambassador and the DCM. However, the program falls short of goals outlined in the embassy’s
written professional development program, which calls for training in drafting, delivering official
démarches, performing control officer duties, and other basic Foreign Service skills.

        First- and second-tour personnel assigned to the consular section work in the Clayallee
annex 45 minutes away from the chancery. Most have little opportunity to develop broader skills.
Embassy Berlin maintains a roster of first- and second-tour personnel in Germany but it is not
updated regularly. The inspection team advised the human resources office to keep the list
current and to establish a blog that would allow the employees in the program to communicate
more easily with each other and with mission management.

Recommendation 13: Embassy Berlin should revise and implement its professional
development program for first- and second-tour personnel with a view toward creating a more
systematic program and increasing participation by officers and specialists who work outside the
chancery and at the consulates general. (Action: Embassy Berlin)




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





Policy and Program Implementation
Political and Economic Reporting and Advocacy

        Embassy Berlin has a large economic section that covers economic issues such as the
crisis over the euro as well as global issues. The smaller political section focuses on domestic
political developments and to a lesser extent on foreign affairs and political-military issues.
Embassy reporting is supplemented by reporting from the mission’s five constituent posts. Berlin
reviews all economic and political reporting before transmission. Only rarely are reporting cables
subject to front office clearance; in most cases final clearance is appropriately delegated to heads
of sections or their subordinates.

        Both sections are still feeling the effects of Wikileaks, which resulted in the resignation
of a senior German foreign policy official and has made contacts less willing to share
information. Washington analysts and Berlin-based officers alike agree that the quality of
reporting has fallen off since the Wikileaks disclosures. To protect information, the embassy has
markedly increased its use of captions that restrict distribution—to the frustration of some
Department officers who cannot readily retrieve them. Embassy reporting often omits the names
of contacts in favor of generic descriptions like “a party official” or a “ministry contact.” This
protects individual contacts but has decreased the credibility of some reporting and made it
difficult for analysts to assess its importance.

Economic and Global Affairs

        The economic section comprises two units. The economic policy unit covers
macroeconomic and financial issues, trade and energy, and transportation. The global affairs unit
has a broad portfolio that includes terrorism and law enforcement, nonproliferation, climate
change, science, and trafficking in persons. The section generally works well with the constituent
posts. The economic minister-counselor recently initiated a monthly video conference for all
economic reporting and trade promotion officers and staff. This effort should further improve
coordination.

        The economic section has produced excellent work, particularly its coverage of the
financial crises in Greece and other indebted European countries. Washington analysts across
agencies described it as some of Europe’s best reporting on the issue. The section’s work
benefits from a close working relationship with the staff at Consulate General Frankfurt, where
the European Central Bank is headquartered. Officers from Berlin and Frankfurt are in frequent
contact, and reporting reflects not only the views of the European Central Bank and other
Frankfurt-based financial institutions but also the German political leadership and the Ministry of
Finance based in Berlin. The embassy and the consulate general supplement formal reporting
with frequent email exchanges with Washington-based analysts at the Department and the
Department of the Treasury. Nearly all Washington analysts interviewed by the inspection team
knew and respected the American and German staff members responsible for covering the issue
and were in regular contact with them.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




       The cooperation extends to resources as well. The DCM directed the economic section to
give up an office management specialist position in exchange for the Department assigning a
second reporting officer to Consulate General Frankfurt to strengthen economic reporting there.

        While the embassy reports extensively on the euro crisis, it does not have a strong voice
in shaping policy. Twice during the inspection a senior official from the Department of the
Treasury met with ranking German officials in the Ministry of Finance and the chancellor’s
office, but did not allow the Ambassador or other embassy representatives to attend. Relations
between embassy officers and their Treasury counterparts are stronger at the working level.

        The global affairs unit, described by one Washington official as consistently “wonderful
and proactive,” received high marks for its work on terrorism and other law enforcement issues,
including supporting the Ambassador’s successful efforts to secure German agreement on a
terrorist financing measure in 2010. Department officials also cited the unit for its work
combating trafficking in persons, including conducting independent investigations, hosting
conferences, and focusing new attention on domestic servitude.

        In conjunction with colleagues from the political section, the global affairs unit has also
pursued an innovative effort to reach out to the European Parliament in Strasbourg, which
influences many of the issues in the unit’s portfolio. The Ambassador conceived and inaugurated
the effort with a reception for German members of the parliament in 2010. The global affairs unit
has followed up with two visits to Strasbourg, the second of which included colleagues from
Brussels and the agricultural attaché from Berlin. Officers involved say the visits have offered an
opportunity for in-depth discussions with German members of the European Parliament and
provided useful insights into parliamentary views. The effort is an excellent example of creative
and effective advocacy.

        The economic section is adequately staffed and does not require additional personnel.
One change is necessary, however. The second-tour officer who covers science—including
climate change, renewable energy, and health—is assigned to the section for only 1 year; the
other year of his tour he will be assigned as a front office staff aide. There is widespread
agreement within the section that the portfolio is too large and complex to be covered effectively
by an officer on a 2-year rotational assignment. The minister-counselor for economic affairs has
correctly identified this as a problem to be fixed and has identified three alternatives. The OIG
team believes he is on the right track to resolving this issue.

Political Section

        The political section is staffed by experienced officers with keen understanding of
Germany and excellent language skills. Washington consumers gave section reporting high
marks, particularly reporting on domestic political developments such as a series of local
elections this year that weakened Chancellor Merkel’s ruling coalition. The section has also done
a good job working with Department of Defense colleagues on issues related to German
deployments in Afghanistan and potential reductions in U.S. forces stationed in Germany.
Information sharing and coordination on political-military issues in general is strong, even
though there are no formal coordination meetings. Foreign affairs reporting focuses on Europe
and the Middle East, including timely reports on Iran and German views of the Arab spring.
Reporting on other issues—Germany’s relations with China, for example—is not so strong.
                                                  14
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




        The section has an unwieldy organizational structure, which consists of two units with
overlapping portfolios: internal and external, and political-military and external. The structure is
confusing to Washington officials as well as to local staff, some of whom report to two
supervisors. Moreover, the section has a deputy political counselor who does not have a specific
portfolio; the larger economic section gets by without one. Nearly everyone interviewed by the
inspection team agreed that the section should be reorganized into three coherent units.

Recommendation 14: Embassy Berlin should reorganize the political section into three coherent
units: internal, external, and political-military, and assign the deputy political counselor to head
one of them. (Action: Embassy Berlin)

        The section also needs to coordinate domestic political reporting more effectively. At a
reporting officers’ conference in October 2010, the consulates general were instructed to increase
their domestic political reporting. The result was a flood of cables on local developments that did
not provide a coherent picture of their national import. One consulate general wrote two dozen
cables on a single local election. Comments on the same event were contradictory, one terming it
a bellwether development, another saying it was too early to gauge its effect. Many reporting
officers and staff at the consulates general said they did not know who was in charge of
coordinating political coverage. Others noted that they were expected to clear their reporting
with the embassy but that Berlin rarely sought their input.

Recommendation 15: Embassy Berlin should name an officer to coordinate missionwide
political reporting and require that officer to hold monthly strategy sessions that include officers
and staff from the consulates general. (Action: Embassy Berlin)

        In reviewing political section expenses, the inspection team was struck by the number of
newspaper and magazine subscriptions the section continues to receive, even though many are
available online. The section this year is spending close to $25,000 on subscriptions, compared
to $12,000 for the larger economic section. If spending on subscriptions were reduced, perhaps
some of the savings could be used to fund needed travel, particularly by political-military
officers.

       Informal Recommendation 1: Embassy Berlin should review the political section’s
       subscription expenses with a view toward reducing them by at least 50 percent.

Common Issues

        The sections do not meet regularly with the Ambassador to discuss key issues or
strategize on how to cover them. Officers in both sections said their work would benefit from
regular contact and guidance from the Ambassador.

       Informal Recommendation 2: Embassy Berlin should require that the Ambassador meet
       regularly with the staffs of the economic, global affairs, and political sections to discuss
       strategy and provide guidance. Representatives from the Department of Defense, the
       Foreign Commercial Service, and other agencies should be invited to participate as
       appropriate.

                                          15
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED



         Both sections produce daily “squibs,” essentially press summaries and other small items
that reach Washington at the opening of business. Both products are well-read and appreciated;
however, both sections spend an inordinate amount of time producing them. In some cases, one-
paragraph press summaries drafted by local staff are cleared by three different U.S. officers. The
result is that officers in both sections are tied to their desks many mornings working on “squibs.”
Input from constituent posts is rare.

       Informal Recommendation 3: Embassy Berlin should review how daily political and
       economic “squib” reports are produced with a view toward simplifying the process and
       encouraging input from constituent posts.

               Both sections use email extensively to communicate with the Department. The
OIG team found numerous instances where the sections had failed to include the Germany desk
in the Bureau of European and Eurasian Affairs on important communications; in a number of
cases the desk learned of important developments from other offices.

       Informal Recommendation 4: Embassy Berlin should take greater care to assure that
       the Germany desk in the Department is copied on all relevant email messages.

        German staff members at the embassy and the constituent posts are experienced and
provide keen political and economic insights. Many have excellent government and private-
sector contacts. Some, however, have difficulty writing in English, leading American supervisors
to spend inordinate amounts of time editing their work.

       Informal Recommendation 5: Embassy Berlin should initiate an in-house English
       writing program to assist local staff members who need to improve their writing skills
       and/or provide them adequate time to take online writing courses offered by the Foreign
       Service Institute.

Public Affairs Section

        The Department’s strategy paper “Public Diplomacy: Strengthening U.S. Engagement
with the World” calling for deploying public diplomacy resources in line with current priorities
led to the decision to reduce the public diplomacy budget for Germany. The public affairs
section, with 42 local staff and eight officers countrywide, plus a regional information resources
officer, remains the largest in Europe despite cuts that reduced its budget from $10.3 million to
$7.3 million in FY 2011. The cutback resulted in the loss of 16 local staff positions countrywide
and the effective closure of Information Resource Centers at the embassy and at the five
consulates general. The educational advisor position in Frankfurt was also eliminated.

        The section is adjusting to the cutbacks by realigning its remaining positions and
identifying priorities, including building up social media capabilities. It is also addressing morale
problems among remaining staff. The recent cutback was one of several realignments that have
affected public affairs operations; cutbacks in prior years led to the closure of six Amerika Haus
centers that housed libraries and cultural centers and significantly reduced student advising by
mission staff.


                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED



       Public affairs officers are stationed in Berlin, Frankfurt, Munich, and Leipzig but not in
Dusseldorf or Hamburg. As noted earlier in this report, Embassy Berlin needs to do a better job
of coordinating its efforts with the consulates general.

        The FY 2012 Mission Strategic and Resource Plan contains two public diplomacy
objectives: to foster greater support for U.S. policies among decisionmakers and the German
public, and to increase understanding among young Germans—ages 15 to 35—of U.S. values,
culture, and history. Performance indicators are based on German opinion as reflected in the
German Marshall Fund’s Transatlantic Trends Survey; for media opinion, the public affairs
section tracks editorial commentary. As do other posts, Mission Germany contributes to the
Department’s Mission Activity Tracker.

          The public affairs section has a minimal relationship with the International Broadcasting
Bureau Germany Transmitting Station located in the Consulate General Frankfurt consular
district. The OIG team prepared a separate concurrent report on the transmitting station.

Outreach

        The Ambassador leads the mission in pursuing active outreach campaigns. He is an
effective public diplomacy engine and pursues a nonstop schedule of public speaking
engagements. From June 2010 through June 2011, he made 288 appearances in which he
presented a speech or delivered public remarks. The most frequent topics were Afghanistan,
including Germany’s role; dealing with global economic challenges; the U.S.-German
relationship; and the future of diplomacy, including the impact of Wikileaks.

        The public affairs section has devoted considerable programming to support Germany’s
continued troop presence in Afghanistan. This is one of the mission’s highest priorities, but it is
not supported by the majority of Germans. These programs focus on social and civic progress in
Afghanistan made possible by the presence of North Atlantic Treaty Organization troops and on
the threats posed to women, girls, and religious minorities by the Taliban and Al Qaeda. The
goal is to help Germans understand the importance of Germany’s military role in Afghanistan.

         The Ambassador has twice visited German troops in Afghanistan and followed up with
effective public speaking engagements and press interviews. The public affairs staff has also
facilitated tours by German journalists to Afghanistan and sponsored tours by Afghan speakers
to Germany. During the inspection, a member of the OIG team observed Afghan civil society
participants as they met with media representatives in Wiesbaden and Mainz. The public affairs
sections in Berlin and the consulates general are essential to supporting these speaker tours. The
favorable press coverage that results is an indicator of program success.

       Cultural programs have also been part of the effort, including a photography exhibition
by National Geographic entitled “Journeys in Afghanistan.” The exhibition will travel in
Germany for 18 months. In Munich, more than 7,000 visitors attended it.

         The heavy outreach program has strained public affairs resources. Although the public
affairs staff was told do less with less, requests for their support—from preparing remarks to
escorting tours of the embassy—have not abated. For example, the former country coordinator
for the Information Resources Center has been assigned front office speechwriting duties but
                                                   17
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




retains other responsibilities as well. While the section has attempted to maintain or expand its
level of support to the front office with fewer resources, doing so has taken a toll on the staff.
Officers and local staff repeatedly told the OIG team that they did not know how long they could
continue this way. An ongoing effort by front office staff to make tasking procedures more
efficient would help reduce the burden on public affairs and other sections.

       Informal Recommendation 6: Embassy Berlin should require that the Ambassador’s
       staff assistant review, with relevant section heads or their representatives, the requests for
       speaking engagements by the Ambassador with an eye toward maintaining a balance that
       fits well within the mainstream of thematic and audience targets, as set forth in the
       Mission Strategic and Resource Plan.

The public affairs section supports a variety of other outreach programs.

        Minorities and Youth. Key audiences are young people and immigrants, including those
of Turkish background. The Ambassador has been a catalyst in getting the public affairs section
and the consulates general to find officers who understand and can communicate with the
country’s significant Turkish minority. The consul general in Dusseldorf, for example, speaks
Turkish and her minority outreach programs have been praised by the Department. Youth
outreach is designed to reach a sector of the population with no strong identification to the
Marshall Plan, the Berlin airlift, or the role U.S. troops in Germany played in guaranteeing
Germany’s freedom. The goal is to create links between youth in Germany, including immigrant
youth, and the United States. Examples include a pilot exchange program that sent 14 high
school-age youth from minority backgrounds to the United States for 2 weeks of homestays and
community service; a visit by two Department-sponsored sports envoys who conducted soccer
clinics with primarily immigrant girls in five cities over the course of 1 week; and performances,
workshops, and exchanges of the Berlin-Bronx Connection, a hip-hop group made up of
Americans and Germans, the latter primarily immigrants.

         Ambassador’s Town Hall Meetings. In the past year, the Ambassador has held 29 town
hall meetings in 19 cities, with up to 700 youth in attendance at a time. Audience interaction is
the initial indicator of traction, but there is also favorable press coverage and follow-on student
interest in U.S. programs. In addition, when the Ambassador mentions his Facebook page at
town hall meetings, there is a surge in the number of his Facebook fans. The OIG team’s
interaction with German-American Institute directors and others outside the embassy community
confirmed the success of these town hall meetings.

        Meet US. Meet US is an outreach program initially designed to increase the exposure of
young Germans from the former eastern states to Americans. In recent years, it has become a
countrywide initiative. Under the program, public affairs and other mission officers, Fulbright
scholars, and American expatriates provide their own experiences on a number of American life
topics and how Americans perceive Germans. The mission held 172 Meet US events around the
country in the 12 months before the inspection. An OIG team member observed and participated
in one Meet US event at a Berlin high school featuring the topic of American diversity.

        Speakers Program. Embassy Berlin invites experts on a wide variety of topics to tour
Germany and makes them available to the constituent posts for programming. Each public affairs
section also takes advantage of targets of opportunity when it learns that prominent Americans
                                                18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




will be in Germany on their own programs. In addition, Fulbright fellows and alumni and
mission staff are called on to supplement the speakers program. Some consulate staff noted that
the public affairs section in Berlin has not always shared that information in a timely fashion.
The public affairs section intends to use that feedback to improve communication.

        Bicycle Tours by Consuls General in Leipzig and Frankfurt. The consuls general in
Leipzig and Frankfurt have done multiple bicycle tours of several days through less traveled
parts of their districts. Each consul general conducted one such tour during the inspection. In
Leipzig, the consul general programmed 20 events during her 3-day tour. The tours have resulted
in positive local press and created new contacts among local officials, schools, and communities.
Some local mayors bicycle a distance along with them.

        Social Media Strategy: The mission uses Facebook, YouTube, Picassa albums, and
Twitter. Although Consulate General Frankfurt’s Facebook page is only in English, the embassy
and other constituent posts use both English and German. Two consulates general have created
new social media positions and Embassy Berlin has redefined an existing position to include a
strong emphasis on social media. Social media is used to amplify interest in events such as U.S.
participation in the Women’s World Cup soccer tournament that began during the latter stages of
the inspection. The consulates general are learning from each other’s best practices. They
distribute social media contact cards at various events and quickly upload news of events to their
Facebook accounts using smart phones. The visiting advisor to the Secretary for innovation told
the public affairs section in Berlin in April 2011 that its use of social media was ranked as one of
the 10 best among U.S. embassies. A particularly strong point was the embassy’s success in
generating online interaction. Facebook fans currently range from a few hundred to about 1,500,
well outside the Department’s top 20 social media posts, whereas Embassy Jakarta, which is in a
league by itself, has nearly one million fans. The public affairs section believes that Facebook
has been slow to catch on in Germany but sees growth in the future.

        One consequence of the cutbacks in staffing was that the public Web sites of three of the
consulates general were taken down by the Bureau of International Information Programs for
several months at the beginning of 2011, after those consulates general lost staff who had been
trained in the Department’s standard Internet Web site content management system. There was
also confusion about the role Embassy Berlin was going to play. The Web sites use an
application called the content management system; when this was upgraded, the three consulates
general did not have properly trained staff.

        The consulates general requested Web site support from the public affairs section in
Berlin, but Berlin did not provide it. Although all Web sites were functioning at the time of the
inspection, the smaller posts struggled with the burden. An alternative would be for the
consulates general to feed content to Berlin and have the Berlin webmaster handle the technical
part of putting content on the Web sites. The embassy, which has a local position dedicated for
its Web site, decided against that approach. It had considered having consulate pages on the one
embassy Web site, which the OIG team believes would be too restrictive. By centralizing the
Web site function, specialists would be able to focus on social media, where the upside potential
merits the focus. This may require adding or rededicating a full- or part-time position to cover
the additional work that would be required in Berlin.


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Recommendation 16: Embassy Berlin should centralize Internet Web site management at the
embassy, with the constituent posts providing content but with a central webmaster unit being
responsible for the technical proficiency of the content management system and servicing
multiple Web sites. (Action: Embassy Berlin)

Media Engagement

        Germany’s decentralized media environment reflects the federal nature of the country. Of
the country’s 12 most important media outlets, only one is headquartered in Berlin. Major media
outlets are located in Frankfurt, Munich, and Hamburg, and the consulates general there play an
important supporting role in terms of media engagement.

         The public affairs section’s Mission Activity Tracker files are replete with successful
press placements, whether interviews with the Ambassador, coverage of events and initiatives, or
opinion pieces carried on editorial pages. All are evidence of strong media contacts by the public
affairs sections throughout the country. The public affairs section also coordinated closely with
the Ambassador and the DCM to respond quickly and effectively to the Wikileaks issue.

Partner Organizations

        With the loss of Amerika Haus and the Information Resource Centers, Mission Germany
relies on 10 German-American Institutes and 10 America At Your Library host libraries as
partners for programming and other services. The German-American Institutes conduct student
programs, educational advising, and teacher seminars, and provide access to public affairs-
supplied research databases, especially for English teachers and students of American studies.
An estimated half of their programming comes from public affairs section speakers and exhibits.
Other good quality programming is developed at the local initiative of the directors of the
German-American Institutes. However, in terms of actual dollar equivalent transfers, 70 percent
or more of budgets come from the state legislatures. Up to 20 percent is from companies, while
about 5 percent comes from public affairs grants, with any balance coming from renting out
office space and facilities. Grant support from the public affairs sections, especially for special
purchases, is warmly received. It is a good investment.

         The German-American Institute in Heidelberg receives 216,000 visitors a year, including
123,000 to its library. The Munich German-American Institute includes a 500-seat auditorium
that the consul general and the Ambassador have used for public diplomacy events. The
institutes are valuable assets. Unfortunately none are located in the former East Germany, the
primary reason an Afghanistan photography exhibit is not scheduled to be exhibited in the east.

        Consulate General Frankfurt has a facility built by the Department as a multipurpose
center for public diplomacy and training. The public affairs section uses it only once or twice per
month because of security requirements that call for escorts (see the section on security in
Executive Direction). Public affairs staff members in Frankfurt also state that clients generally do
not find the consulate compound welcoming. Similar issues inhibit public programs at other
constituent posts.



                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Recommendation 17: Embassy Berlin should require security and public diplomacy officers to
prepare a joint report on steps that could be taken to facilitate holding public diplomacy
programs at the embassy and constituent posts. (Action: Embassy Berlin)

       Successor to Windows on America. Windows on America was a public-private
partnership exchange program initiated several years ago. It has since run out of funds. A
replacement program called Young Talents was piloted in the fall of 2010 using public affairs
funds. Like Windows on America, it is designed to reach youth in disadvantaged and immigrant
communities and includes a community service component. However, after 10 months the
Department still has not given legal clearance for the embassy—and especially the
Ambassador—to proceed with a major fundraising effort.

        Eastern Germany Teachers Visitor Program. The Eastern Germany Teachers Visitor
Program was developed in 2003 by Consulate General Leipzig with embassy support. It is a
public-private partnership that attempts to fill the gap that eastern German teachers of English
and American studies have regarding U.S. experience and knowledge. Many teachers who taught
Russian in East Germany were retained but converted to being English-language teachers after
reunification. The Ambassador assists with fundraising. Some U.S. company sponsors have links
with local German schools. Consulate General Leipzig believes that the program is still valuable
although differences between the east and west in Germany are gradually fading.

Exchanges

        Fulbright, which operates 29 programs with two-way exchanges of scholars and students,
is the mission’s core exchange partner and is the world’s largest binational commission in terms
of participants. The Fulbright student and scholar programs had an FY 2010 budget of more than
$10.8 million. Since 1996, 70 percent of the funding comes from the German Government,
making Germany the largest European contributor to the Fulbright program. The Bureau of
Educational and Cultural Affairs has expressed concern that its annual contribution to the
program of approximately $2.7 million may be in jeopardy in the current budget climate. There
is concern in the Department as well as in the embassy and among Fulbright Commission staff in
Berlin about how the German Government would react to a reduction in Department funding.

        The relationship between the embassy and the Fulbright Commission is good. Both the
Ambassador and the DCM strongly support the program and participate in Fulbright events. The
PAO is the board chairman for Fulbright and the cultural affairs officer is the treasurer. Credit
for the success of the program is shared between the embassy and the Fulbright Commission, as
well as organizations like the Fulbright Alumni Association and the Association of Friends and
Sponsors (individuals and large corporate sponsors).

       The Fulbright Commission actively supports diversity programs, which help provide
young German Muslims with a different view of the United States than they may receive
elsewhere. A diversity program conceived by the U.S.-German Fulbright Commission sends
additional minority students with funds it has raised in Germany. It is one of the few exchange
organizations in Germany that focuses on immigrant minorities. Diversity program alumni have
formed their own organization with assistance from the Fulbright Alumni Association. The
program has been copied by several other Fulbright Commissions in Europe.

                                         21
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED



         The Challenge of the Bologna 2010 Agreement. The Bologna 2010 Agreement among
European Union countries changed the degree process in Europe and has made it more difficult
for students to take time from their studies to do a year of undergraduate or graduate work in the
United States. The change has made it harder to recruit German students for the Fulbright
exchange program. In response, the commission is trying to get undergraduates to do a semester
in the United States and trying to work out arrangements for several German universities to pair
up with select American universities to offer joint degrees. The stakes are important. Ten years
ago the United States was the number one study abroad country for German students. Today it is
fifth, behind the Netherlands, the United Kingdom, Austria, and Switzerland. The overall trend,
which is driven by such things as cost and changing personal preferences, as much as by
structural impediments such as the U.S. visa process or the Bologna Agreement, may not be
reversible.

        American Teaching Assistants. There are 140 American teaching assistants in Germany
under the Fulbright program, the largest such group in the world. The program includes a
diversity program in which 20 teaching assistants are sent to schools with minority programs.
The German states pay for half of the 20 in the diversity program as an add-on to the regular
teaching assistant program.

        International Visitor Leadership Program. The mission operates a large and proven
International Visitor Leadership program that includes a number of minority slots. Under the
program, there were 42 visitors in FY 2010, and 52 in FY 2009. In FY 2010, 37 visitors were
candidates from the consulates general; in FY 2009, 41 were from the consulates general. There
were 45 voluntary visitors in FY 2010. Visitor programs cover a variety of themes that are
mission priorities.

         Alumni. There are over 180,000 alumni in Germany from programs supported by the
Bureau of Educational and Cultural Affairs. Alumni include the Vice Chancellor and Foreign
Minister, three other current federal ministers, seven past presidents and chancellors, and two
current political party leaders. Alumni have active state chapters and host events that mission
staff attend.

Consular Affairs

        Consular operations in Germany are generally well run under the supervision of the
minister-counselor for consular affairs in Berlin; however, the OIG team identified several issues
that need to be fixed. Consular sections in Berlin, Frankfurt, and Munich provide full consular
services. The consular agent in Bremen and Leipzig provide limited American citizen services.

         Over the past 15 years, consular operations in Germany have continuously been realigned
due to changing workloads and more efficient services. When the consular sections in Hamburg
and Leipzig closed, Embassy Berlin assumed responsibility for services in their consular
districts, including supervision of the consular agent in Bremen. Consulate General Frankfurt
assumed responsibility for consular services in Dusseldorf’s consular district.

       The OIG team has concluded that consular staffing in Germany needs to be adjusted
again and is recommending that two mid-level consular officer positions and one entry-level

                                          22
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




consular officer position be eliminated from Consulate General Frankfurt (see discussion under
Rightsizing earlier in this report).

The Role of the Minister-Counselor for Consular Affairs

        The minister-counselor for consular affairs coordinates consular operations countrywide,
advises the Ambassador on consular issues, conducts liaisons at high levels with the German
Government, sits on the country team, and represents consular operations countrywide. This
officer regularly communicates with the consular chiefs in Frankfurt and Munich. The role of the
minister-counselor for consular affairs in Germany is different than in many other countries,
where the consular sections in the capitals are among the largest consular operations in those
missions. In those missions, the ministers-counselor are in daily contact with a significant
percentage of the consular staff in the mission.

        The consular section in Frankfurt has 94 employees, whereas the consular section in
Berlin has 19 employees. Therefore, the minister-counselor for consular affairs is not located
with most of the employees. This setup makes it imperative that the minister-counselor travel
regularly to Frankfurt and Munich to meet with staff to conduct training and mentoring and to
review operations, including consular management controls.

Recommendation 18: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should provide sufficient funding to enable the minister-counselor for consular affairs to visit
Consulates General Frankfurt and Munich four times per year for several days at a time on each
visit. (Action: CA, in coordination with Embassy Berlin)

        The consular section chiefs in Berlin, Frankfurt, and Munich and the minister-counselor
for consular affairs communicate regularly by telephone and email, but coordination would
benefit from digital videoconferencing, which is available at all posts in Germany.

Recommendation 19: Embassy Berlin should schedule monthly videoconferences to coordinate
consular operations and promote standardized operations in Mission Germany. (Action: Embassy
Berlin)

       While most sections of the embassy have held a countrywide conference in recent years,
the consular sections have not. Such conferences are excellent tools for building teamwork and
enhancing communications.

Recommendation 20: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should organize and fund a countrywide consular conference on an annual basis. (Action:
Embassy Berlin, in coordination with CA)

        Integration of the three sections is enhanced by assigning countrywide roles to officers at
all three posts. The consular chief in Munich is the machine readable visa fee coordinator for the
mission. The visa chief in Frankfurt coordinates visa processing and the Frankfurt American
citizen services chief is the countrywide children’s issues coordinator. Issuance of certain
nonimmigrant visa categories is also reserved to specific posts, except in emergencies. All
diplomatic visas are issued in Berlin, while all treaty trader and investor visas are adjudicated in
Frankfurt. Frankfurt is the sole immigrant visa issuing post in Germany. The assistant regional
                                                  23
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




security officer for investigations (ARSO-I) in Frankfurt is responsible for consular fraud
investigations throughout Germany. This position is currently filled by a temporary duty officer
who arrived about 5 weeks before the start of this inspection.

         Although the responsibilities are countrywide, the temporary duty ARSO-I has not
traveled to Berlin and Munich and these posts do not regularly call on her services. The ARSO-I
has focused on law enforcement contacts and has conducted very little training for consular
employees. The previous ARSO-I visited Berlin and Munich to assist with cases, but provided
little formal training.

Recommendation 21: Embassy Berlin should direct the assistant regional security officer-
investigator in Consulate General Frankfurt to create a plan for quarterly visits to Berlin and
Munich to establish working relationships and promote understanding of the function. (Action:
Embassy Berlin)

Recommendation 22: Embassy Berlin should direct the assistant regional security officer-
investigator in Consulate General Frankfurt and the relevant fraud prevention staff to conduct
fraud prevention training at least once per year in Berlin, Frankfurt, and Munich. (Action:
Embassy Berlin)

American Citizens Services in Germany

        The consulates general in Hamburg and Dusseldorf do not provide consular services.
Berlin consular staff visit Hamburg quarterly to provide routine consular services and Frankfurt
schedules outreach visits to Dusseldorf. Officers in Leipzig have consular commissions and
provide limited American citizen services, including emergency assistance. These activities are
discussed further below. Hamburg and Dusseldorf officers do not respond to consular duty calls
but rather refer callers to Berlin and Frankfurt. The officers in those consulates general need to
be prepared to respond to emergencies in the same way that duty officers who are not consular
have to respond.

Recommendation 23: Embassy Berlin should issue standard operating procedures specifying
the responsibilities of the duty officers in Hamburg, Dusseldorf, and Leipzig to respond to
requests for emergency services by American citizens. (Action: Embassy Berlin)

         Consular operations in Germany benefit from excellent cooperation from German
authorities at the federal and state level, but it is an ongoing challenge for consular officers and
staff to maintain working relationships with police and authorities in all of the 16 German federal
states. This issue is especially important given the large number of Americans living in or
visiting Germany and the decentralized federal nature of the German governmental system.

Recommendation 24: Embassy Berlin should develop a comprehensive plan for consular
employees in Berlin, Frankfurt, and Munich to include visits to German state officials and
institutions in combination with prison visits and outreach programs. (Action: Embassy Berlin)

       Over 85 Americans are incarcerated in Germany in facilities widely dispersed across the
country. It is time consuming and costly to travel to each of them on the prescribed schedule.
These visits, however, are an absolute requirement per 7 FAM 463 a. Time and funds could be
                                                24
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




saved by performing a “circuit ride” to more than one facility when consular officers make these
visits. Mission travel funds must be made available.

Recommendation 25: Embassy Berlin should allocate sufficient travel funds to consular
sections to allow for travel, including extended trips, to visit American citizen prisoners as
prescribed by Department regulations. (Action: Embassy Berlin)

        Consulate General Leipzig is not formally authorized to provide consular services.
However, an officer (with a consular commission) is providing limited consular services,
including notarials and passport applications. The consulate general has an automated consular
cash receipt systems computer and sends its receipts to the financial management section in
Berlin. It has also been active in providing emergency assistance to Americans who come to their
attention. Neither the minister-counselor for consular affairs nor the consular section chief in
Berlin are providing direct supervision of consular operations in Leipzig. In addition, the hours
spent providing consular services and the number of consular actions performed are not being
reported in the Berlin consular package.

         The OIG team did not get a clear answer as to why this small operation was allowed to
continue providing limited consular services when the stated policy of the mission has been to
consolidate all consular operations in Germany into Berlin, Frankfurt, and Munich. Providing
consular services in Leipzig creates additional responsibilities for the consular managers in
Berlin, who need to provide oversight. Americans can easily travel from Leipzig to Berlin by
train in one hour.

Recommendation 26: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should close the small consular operation in Consulate General Leipzig. (Action: Embassy
Berlin, in coordination with CA)

        The mission makes good use of social media, including Facebook and YouTube, drawing
on the skills of several tech-savvy entry-level officers. The consular section in Munich produced
a YouTube video warning visitors of the dangers during Oktoberfest that was well received.
More could be done to use these media but the mission needs to be careful to keep all
information on Web sites and other media sites current and correct.

Recommendation 27: Embassy Berlin should assign a consular employee as a media
coordinator and create a missionwide consular media program, with regular input from all
consular sections in Mission Germany. (Action: Embassy Berlin)

        Consular staff members, particularly in American citizens services, are often away from
their sections performing their duties and are unable to receive emails. This problem leads to
wasted time and poor communication and was particularly noticeable during Consulate General
Frankfurt’s support of the Embassy Cairo evacuation. Guidance in 7 FAM 1815 recommends
that consular employees who need to be prepared to respond to emergencies be equipped with
personal digital assistants.

Recommendation 28: Embassy Berlin should provide personal digital assistants for employees
in the American citizens services units of the consular sections and for the managers of those
sections in Berlin, Frankfurt, and Munich. (Action: Embassy Berlin)
                                                 25
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Consular Section in Berlin

        The strong Berlin consular section is led by an FS-02 consular chief and an FS-03
American citizens services chief. The section’s capable staff comprises three entry-level officers,
several German and American local employees, and eligible family members (EFM). The
consular section is located in the Clayallee annex, approximately 45 minutes by car or public
transport from the chancery.

         The section is further isolated from the other sections in the Clayallee annex because the
hardline divides the building in half. Consular officers and staff seldom see or interact with other
staff in the building or join in activities at the chancery, creating morale problems for the
employees. They do not get much sense of being part of a larger mission. The nonimmigrant and
American citizens services units are further divided on separate floors. Workspace is adequate
and officer oversight of printing operations and cashiering is compliant with Department
regulations. Access to the section is restricted to consular employees.

       The interview windows in the Berlin nonimmigrant visa unit are poorly designed and
provide little privacy. OBO has a proposal to restructure the hardline and create new booths. This
proposal is awaiting funding. The microphones in the section frequently malfunction and local
maintenance staff has been unable to correct the problems.

Recommendation 29: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin, should fund and replace the interview windows
in the nonimmigrant visa unit in Berlin. (Action: OBO, in coordination with CA and Embassy
Berlin)

Recommendation 30: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should fund and install a new, modern microphone system for the nonimmigrant visa unit in
Berlin. (Action: Embassy Berlin, in coordination with CA)

        The consular section in Berlin absorbed the consular work previously performed by
Consulate General Hamburg as well as oversight of the Bremen consular agency without
additional staffing. Berlin’s ability to meet the demand for nonimmigrant visa appointments
during peak periods is barely adequate. As noted above, applicants have not been willing to
travel to Frankfurt or Munich, where waiting times are shorter.

        Berlin’s consular operations are also impacted by difficulties in hiring replacements for
local staff, including summer temporary hires. Emphasis on hiring American family members
has adversely affected the language capabilities of the local staff, and several current employees
speak little or no German.

Recommendation 31: Embassy Berlin should provide guidance to consular managers in Berlin
to ensure that job vacancy announcements for locally-hired positions properly reflect the
language requirements of those jobs. (Action: Embassy Berlin)

       The Berlin consular chief supervises the consular agent in Bremen. The agency recently
moved to new quarters near the airport. The agency provides passport acceptance and notarial
services as well as some emergency assistance. The Bremen consular agency is a valuable
                                               26
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




consular asset for Mission Germany. The agent is frequently asked to represent the United States
at official functions and public events in the Bremen area. The agent has a computer and can
access her Department computer account remotely; however, she did not have access to the
embassy SharePoint site, which hindered her ability to receive and retrieve information. She was
also not included on most embassy distribution lists for management notices. These problems
were fixed once the OIG team brought them to the attention of the consular managers in Berlin.

Consular Section in Frankfurt

        The consular section chief in Frankfurt is fully involved in the day-to-day operations of
the section and takes an active part in visa and passport adjudication and management. An
exceptional team of experienced, well-trained, and dedicated local staff deserve much credit for
the section’s performance, as is the case in all three consular units in Germany.

       Consulate General Frankfurt has been asked to provide temporary duty personnel for
other posts and is frequently at the center of global consular operations such as the evacuation of
American citizens from Cairo and the return of American citizen minors transiting from other
countries and needing assistance.

        The consulate general has been designating one entry-level officer in the consular section
as the “designated control officer” on a rotating basis. This officer is responsible for acting as the
control officer for congressional delegations and high-level visits to Frankfurt and also for
transporting accommodation funds to congressional delegations transiting Frankfurt. Depending
on the number of visits, this tasking can occupy 25 to 75 percent of the officer’s time. In FY
2010, 912 officer hours were spent on this duty. It is inappropriate to use a consular position in
this way. The Bureau of Consular Affairs is, in effect, paying for an officer position that is being
used in great part as a control officer. These duties should either be shared among the American
employees at the consulate general who have to serve as duty officers, or it should be performed
by an EFM.

Recommendation 32: Embassy Berlin should coordinate with Consulate General Frankfurt to
create a new roster system for “designated control officers” that includes all employees who
serve as duty officers. Alternatively, Embassy Berlin should create and fund an eligible family
member position to perform this duty. (Action: Embassy Berlin)

        Frankfurt has a number of innovative programs in place that improve the section’s
efficiency. First among these is the passport pilot program. Base acceptance agents in Germany
take applications for tourist passports from military applicants and their families and send them
directly to the National Passport Center for processing as if they were domestic applications. In
the past, the consular section in Frankfurt adjudicated such applications. The pilot program
reduces the passport workload in Frankfurt by approximately 18,000 cases per year and has been
very successful. As a result of this program, Frankfurt has eliminated two local staff positions
and will eliminate one more through attrition later this year. Frankfurt staff carefully oversee the
military passport acceptance agents, especially because the turnover is higher than with domestic
agents.



                                           27
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Recommendation 33: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should make the passport pilot program in Germany permanent and consider expanding it to
other posts with significant military passport workloads. (Action: CA, in coordination with
Embassy Berlin)

        In addition to the passport pilot program, Frankfurt has developed a computer planning
matrix that allows the nonimmigrant visa unit to balance the number of appointments made
available each day based on the number of officers and staff available and the complexity of the
visa categories. This allows the workload to be leveled and best utilizes resources. This program
appears to have potential for broader application.

       Informal Recommendation 7: Embassy Berlin should coordinate with Consulate
       General Frankfurt to report on the consulate general’s visa appointment program to the
       Bureau of Consular Affairs for possible development and broader use.

        Frankfurt enjoys excellent cooperation and coordination with the other agencies at post
whose operations are involved with the consular section. This is especially true of the visa
security unit of the Department of Homeland Security. The unit is colocated with the visa unit of
the consular section, and consular officers adjudicating visa applications make use of the broad
local knowledge of the Department of Homeland Security officers.

        The Frankfurt fraud prevention unit’s daily operations are headed by an experienced local
employee, particularly in document screening. Unfortunately, the unit is not realizing its
potential as it has struggled to coordinate its functions with those of the ARSO-I position. The
ARSO-I has published a standard operating procedure for referring cases to either the fraud
prevention unit or the ARSO-I, but it has yet to be agreed on by both units. The ARSO-I and the
fraud prevention unit local staff disagree on which unit should maintain contacts with the police,
although the memorandum of understanding between the Bureaus of Diplomatic Security and
Consular Affairs states that they are not exclusive to either unit. At the same time, however, the
fraud prevention unit has not completed tasks that are uniquely its own, particularly validation
studies. Consular managers and the regional security officer need to cooperate to resolve the
outstanding issues between the units.

Recommendation 34: Embassy Berlin, in coordination with the Bureau of Consular Affairs and
the Bureau of Diplomatic Security, should require the consular section and regional security
office in Frankfurt to produce standard operating procedures for the fraud prevention unit in the
consular section and the assistant regional security officer-investigator. (Action: Embassy Berlin,
in coordination with CA)

        Many entry-level officers complained about the fact that, on busy days with many
appointments, the consular managers require them to keep interviewing through the lunch hour
until they are finished. The officers believe it would be more reasonable to have afternoon
appointment hours or to have reduced numbers during lunchtime to allow officers to take
staggered lunch breaks.

Recommendation 35: Embassy Berlin should require that the consular managers in Consulate
General Frankfurt work out an appointment schedule on busy days that will allow consular
officers to take their lunch breaks at normal times. (Action: Embassy Berlin)
                                                 28
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





Consular Section in Munich

        Consulate General Munich has a strong consular section. Led by an FS-02 section chief
and staffed by three entry-level officers and a local staff of 14, it provides nonimmigrant visa and
American citizens services to Bavaria. With two major U.S. military bases, the consular district
has the largest number of American citizens resident in the consular district, and Munich is the
most popular tourist destination in Germany. The section benefits from strong support from the
consul general.

        Munich has a strong consular outreach program that includes the annual “Newcomers’
Festival.” This event brings together all the U.S. agencies that provide services to American
citizens, as well as a number of German offices with which the Americans interact. The
consulate general also holds events with local schools and on U.S. bases. The section
distinguished itself during the travel disruptions early in 2010, when volcanic ash from Iceland
blanketed much of Europe and caused thousands of flight cancelations and stranded travelers for
extended periods. The consular staff did an excellent job working with German officials and the
airlines to help those in need.

        Local staffing would be adequate if it was at full strength. However, two employees have
been on extended sick leave, one for over 18 months. One EFM position in the passport unit is
unfilled. The absence of these employees has made it difficult for Munich to expand its share of
the countrywide consular workload.

        The consular section in Munich needs two new interview windows. The current windows
are shared by the nonimmigrant visa and American citizens services staff, one unit in the
mornings and the other in the afternoons, limiting appointments for each. Space is available for
the additional windows. Space is not available in the waiting room, which seats 40 people.
Expanding the waiting room would be excessively expensive so the most cost-effective way for
Munich to increase its work capacity is to add the windows. Although the mission has
established with OBO a requirement for the additional windows, OBO has not yet funded the
requirement.

Recommendation 36: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin, should fund and construct two additional
consular windows in the consular section in Munich. (Action: OBO, in coordination with CA and
Embassy Berlin)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSFIED




Resource Management
Agency                                    U.S. Direct-Hire            U.S. Local-          Foreign             Total           Total
                                            Staff (Auth)              Hire Staff           National            Staff         Funding
                                                                        (Auth)           Staff (Auth)                         FY 2010
State – D&CP1                                               177                     9             143              329       $29,126,052
State – ICASS                                                27                    55             405              487       $65,408,600
State – Public Diplomacy                                     10                     0              63               73       $10,352,080
State – Diplomatic Security                                  17                     0              14               31       $14,629,928
State – Marine Security2                                     81                     0               0               81          $841,507
State – Representation                                        0                     0               0                0          $197,300
State – OBO                                                   5                     1               4               10       $10,052,051
Foreign Commercial Service                                    5                     0              28               33        $3,499,752
Foreign Agricultural Service                                  2                     0               5                7          $630,020
Federal Bureau of Investigation                              11                     0               0               11         $748, 316
Drug Enforcement                                               7                    0                   0              7
Administration3
Department of Homeland                                       69                     4                  10           83         $3,044,561
Security4
Department of Defense5                                       45                     0                  16           61         $5,608,466
Internal Revenue Office                                        5                    0                  10           15         $1,576,610
Federal Aviation Office                                      28                     2                   4           34         $4,740,951
General Services Administration                                4                    1                   0              5         $890.000
IBB PROGRAMS                                                   2                    0                  19           21      $13,479,694
State – Regional Procurement                                   4                    1                  26           31     $5,375,849.00
Support Office
State – Regional Support                                     57                     3                  21           81         $2,691,540
Center6
State – Regional Information                                139                     5                   4          148         $4,146,262
Management Center
State – Regional Diplomatic                                  34                     4                   9           47         $1,200,000
Courier Division
State – Regional ESC Seabees                                 21                     2                  3           26           $228,713
State-RMO                                                     1                     0                  0            1           $107,705
JVSC                                                          8                     1                  0            9           $257,541
Totals                                                      759                    88                784         1631      $177,196,072
    1
       includes RIMC FY 2010 budget
    2
      includes staff and funding of DOD-U.S. Marine Corps
    3
       DEA Frankfurt stated that they had been advised that DEA throughout the Europe and Africa region has only been providing the ICASS
    figures to OIG. Due to the complexity of DEA’s budgeting process and regional responsibilities, it is requested that OIG directly contact
    the DEA Office of Inspections at DEA Headquarters in Arlington, VA for further information or guidance.
    4
       only reflects DHS-TSA (Berlin/Frankfurt) funding. All other DHS subagencies requested that the Department’s OIG contact DHS OIG for
    funding details (various emails on file)
    5
       includes DAO, ODC, DIAL, DASSO, USAITC and DLA Civil Troop Support staff and funding. Note that regional U.S. Marine Corps
    staff and funding are included in Marine Security
    6
      does not include RSC Regional/FSC funding.




                                                     30
                                         SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSFIED




Management Overview

        Mission Germany’s management section is headed by an experienced management
counselor. Berlin, Frankfurt and Munich have management officers, while Hamburg, Leipzig,
and Dusseldorf have officers for whom management is a part of their duties. The section
provides adequate service in most areas. However, International Cooperative Administrative
Support Services (ICASS) customer satisfaction scores for Embassy Berlin are below the bureau
and worldwide averages. While customer satisfaction scores for Consulate General Frankfurt are
also below average, they are on an upward trend. The human resources operation is not
performing well, and inspectors received numerous complaints about it. The situation, discussed
in detail in the Human Resources section of this report, brought down the customer satisfaction
survey averages for Berlin and Frankfurt.

        The minister-counselor for management affairs has taken a number of steps to coordinate
management operations throughout the mission. Berlin sends a weekly “week ahead” email of
upcoming embassy and consulate activities. A biweekly management digital video conference
includes all the consulates general. The minister-counselor talks regularly with the management
officers in Frankfurt and Hamburg and with the other consulates general as needed. There is also
an annual Mission Germany management conference attended by the American officers and
many of the local management staff from the consulates general.

        While telephone calls and digital video conferences allow employees to exchange ideas
and ask questions, personal visits can provide a good view into how the consulates general are
really operating. As is the case with the embassy’s other section chiefs, the minister-counselor
for management affairs has rarely visited the consulates general. The embassy has not
established any mentoring programs and consulate management officers rarely visit Berlin or
Frankfurt for consultations. The local employees handling information management and human
resources echoed the complaint about a lack of support from the embassy. The consulates
general have experienced local staff, but they require guidance from their American supervisors.

         The problems reported at some of the consulates general, which are described in the
Executive Direction and EEO sections of this report, could have been avoided or ameliorated
with more oversight, guidance, and attention. The OIG team informally set up a mentoring
relationship between the second-tour management/political/economic officer in Dusseldorf and
the FE-OC management officer in Frankfurt, but the embassy should have already arranged such
a relationship and should have established a formal mentoring program.

Recommendation 37: Embassy Berlin should develop and implement a program to mentor and
support officers with management responsibility in Consulates General Dusseldorf, Hamburg,
and Leipzig. (Action: Embassy Berlin)

Financial Management

        The financial management offices in Berlin and Frankfurt provide good service to ICASS
users, including those at the consulates general in Dusseldorf, Hamburg, and Leipzig. Financial
management officers in Berlin and Frankfurt are capable, knowledgeable, and interested in
identifying efficiencies. Local staffs are well trained and follow Department regulations and
internal operating procedures.
                                                   31
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




        The cashier monitor based at the Charleston Financial Service Center conducted a
detailed analysis and review during a 2010 site visit. No material discrepancies were found. The
two offices implemented the recommendations from the review to improve operations.

        At the end of June 2011, as this inspection was ending, the Berlin and Frankfurt financial
management offices were finalizing their consolidation into a single operation. Beginning in July
2011, financial management services will be centralized at the embassy. Under this restructuring,
the Frankfurt financial office will shrink from 18 to 6 local employees and be recharacterized as
a customer service center. Berlin will increase its staffing by three, to a total of 31. The
consolidation is expected to save an estimated $700,000 annually.

        The International Broadcasting Bureau has a long-standing issue regarding its failure to
receive value-added tax reimbursements for official expenses at its two transmitting stations in
Lampertheim and Biblis. A recommendation regarding this topic has been issued for action by
Embassy Berlin in the concurrent inspection of the International Broadcasting Bureau’s
operations in Germany.

eVoucher

         The staffing reductions, cost savings, and efficiencies the mission is gaining with the
financial management center consolidation could not have been possible without an innovative
electronic voucher program called eVoucher that allows the financial management staff to
manage the entire voucher process. The program, developed by Embassy Berlin, saves time and
facilitates the review and approval of vouchers, including certification. The program is used to
process an estimated 51,000 voucher strip codes annually, the largest workload of any embassy
worldwide. The eVoucher program is discussed in detail in the Information Management section
of this report.

        The eVoucher application also allows the financial unit to easily transfer part of its
vouchering to post support units in Charleston, Bangkok, and Sofia. Mission Germany
outsources about 30 percent of its workload to these units, which have a lower per-transaction
cost. The mission anticipates that this percentage will gradually increase each year. All travel
vouchering will be transferred to post support units by the end of 2011.

        One unresolved issue with eVoucher involves medical information and patient privacy.
The health unit forwards medical services invoices to the financial management office for
processing and payment, but it is unclear whether the financial management staff should have
access to this information. The financial management officer has addressed this issue by having
health unit staff certify via memo that treatment was provided rather than including medically
sensitive information in the voucher. The financial management staff does not have the legal
expertise to decide the correct procedures and additional guidance is needed.

Recommendation 38: The Office of Medical Services, in coordination with the Bureau of
Resource Management, the Office of the Legal Advisor, and Embassy Berlin, should issue
standard operating procedures on the handling and protection of medical documents. (Action:
MED, in coordination with the RM, L, and Embassy Berlin)

                                          32
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Cashiering

        After conducting management reviews in 2010, Berlin financial officers were able to
reduce cashiering services in Dusseldorf, Hamburg, and Leipzig. The Class B cashiers at each
consulate general were designated as subcashiers, and their total cumulative cash advance of
         was reduced to         . Cashiers also stopped performing accommodation exchange
services. Officers continue to perform required cash counts, but the complexity and frequency
are greatly reduced.

        Similar management reviews need to be performed in Frankfurt, which has two cashiers,
and in Munich, which has one. Both consulates general still provide in-house accommodation
exchange services. Financial officers stated that Frankfurt provides accommodation exchange
mainly because of all the regional staff and visitors; previous attempts to reduce accommodation
exchange services were met with opposition. While the financial officers believe that this
function could be outsourced, it would only produce cost savings if it led to the elimination of a
cashier position, which costs $100,000 annually. Outsourcing accommodation exchange to a
local bank would cost an estimated $50,000 to $60,000 per year. Installing an automated teller
machine on the compound would cost about $34,000 per year.

        Munich’s small staff is insufficient to interest a bank or to justify the cost to outsource
accommodation exchange or the installation of automated teller machine. An alternative would
be to require officers to establish local bank accounts as their colleagues in Berlin have done.

       A review of cashiering is also needed in Berlin, which has two cashiers. The cashiers
provide accommodation exchange only to official visitors. A local bank with a branch in the
embassy handles accommodation exchange for American personnel assigned to Berlin.

Recommendation 39: Embassy Berlin should conduct a management review of cashiering
operations to determine whether cashiering services can be reduced and whether outsourcing
accommodation exchange and using automated teller machines would be beneficial and cost
effective. (Action: Embassy Berlin)

       In Munich, the Class B cashier provides full cashiering services, but his position is
graded one level lower than comparable positions in Berlin and Frankfurt.

       Informal Recommendation 8: Embassy Berlin should review the position description
       for the Class B cashier’s position in Consulate General Munich, revise any inaccuracies,
       and reclassify the position.

International Cooperative Administrative Support Services

       The ICASS program functions well. Each of the parent agencies has a representative on
the ICASS council. Relations among agencies are collaborative, professional, and productive.
ICASS meetings are held regularly and detailed minutes are taken. The ICASS council has
adopted the Department’s uniform performance standards.

       In addition to ICASS council meetings, the mission holds ICASS budget committee
meetings where agencies with multiple entities can voice concerns about budget, staffing, and
                                               33
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




other related issues. Missionwide resource issues are usually resolved in these committee
meetings before advancing to the ICASS council.

Human Resources

       The Berlin and Frankfurt human resources offices serve a diverse number of agencies and
American and local staff members. ICASS scores were below the worldwide averages and the
averages for the Bureau of European and Eurasian Affairs. In OIG questionnaires and interviews,
mission staff complained about customer service, the length of time to hire local staff, hiring
decisions, and family member employment opportunities.

        The Berlin management officer is acting as the senior human resources officer and
manages a staff of 11 local employees. The senior FS-01 position in the office has been vacant
since June 2010; it will be filled in August 2011 by an FS-01 economic-coned officer with
minimal human resources experience. In Frankfurt, the mid-level FS-02 and FS-03 positions
were filled with entry-level officers after the Department ceded these positions to the entry-level
division. Together they supervise a staff of 11. Both have a human resources background but
have never served overseas. Mission Germany is too large and complex to assign officers with
minimal human resources experience to these positions.

        A year ago, ICASS scores for American personnel were good. The lower scores coincide
with the assignment of a first-tour officer to the Berlin human resources office in 2009-2010 as
well as the departure of the senior human resources officer in Frankfurt. (b) (6)




        Mission Germany instituted a local employee hiring freeze in FY 2011 in anticipation of
future budget cuts. The financial management officer will only fund positions that are critical to
operations. This hiring freeze is a primary source of frustration for mission supervisors. The
mission has already eliminated 29 local staff positions. There are 24 local staff and 13 EFM
positions that the embassy does not plan to fill because of a lack of funding. Two consular local
staff positions are frozen due to pending litigation, while two other consular local staff positions
remain vacant because of long-term illnesses.

        A number of supervisors complained about the time it takes to hire local staff. If the
process goes smoothly, it takes 3 to 5 months to bring a new employee on board. Under German
labor law, employees can be required to provide their current employer with up to 7 months
notice prior to quitting, which can also delay a new employee’s start date. Publicizing the ICASS
service standards and keeping customers better informed as to the status of their hiring requests
should reduce the number of complaints.

Workload and Organization

       The majority of human resources services are centralized in Berlin, which is responsible
for human resources policy, position control, performance management, litigation, the locally
employed staff handbook, and compensation. Frankfurt is responsible for the awards program,
some position classification, and German social security payments. American and local staff
                                                34
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




services, employee relations, payroll, position descriptions, and recruitment are performed at
both locations. Both offices use a locally developed software program to track local and
American personnel data.

        The senior human resources position, which was moved to Consulate General Frankfurt 5
years ago, has been moved back to Berlin, while both mid-level positions are now located in
Frankfurt. The workload allocation of the three American human resources officers, however, is
not clearly defined, and lines of authority are unclear. Embassy management has asked the
Office of Resource Management and Organization Analysis for assistance in resolving its
organizational problems. This office is scheduled to conduct an onsite analysis of the human
resources operations in summer 2011 and to make appropriate recommendations.

Performance Evaluations

        Although the human resources office has a reminder system, late performance
evaluations continue to be a problem. From June 2009 through June 2011 evaluations for 549
local staff were late. The human resources office estimates that each year about 80 within-grade­
increases are not processed on time because of late evaluations. Delays in preparing, submitting,
and processing evaluations adversely affect the staff, as salary increases are not retroactive. The
mission is not complying with Department guidance (State 168910 dated June 17, 2003)
regarding timely evaluations.

Recommendation 40: Embassy Berlin should establish and enforce procedures that will provide
timely completion of performance evaluations for all locally employed staff, including holding
supervisors formally accountable for this responsibility in their work requirements and
evaluations. (Action: Embassy Berlin)

Position Descriptions

        Position descriptions for locally employed staff are not current. The human resources
office began a comprehensive review of the mission’s 780 position descriptions at the beginning
of FY 2010; about half have been updated. According to 3 FAH-2-H441.4 B., American
supervisors are responsible for ensuring that positions under their direction are accurately
described. Guidance in 3 FAH-2 H-443.1 charges both the supervisor and American human
resources officer with ensuring that position descriptions are up-to-date. The human resources
officer is also responsible for administering an annual review in which all positions in each
organizational unit are examined for accuracy.

Recommendation 41: Embassy Berlin should complete its missionwide review of all local staff
position descriptions, revise those that are inaccurate, and reclassify the affected positions.
(Action: Embassy Berlin)

Locally Employed Staff Handbook

       The locally employed staff handbook is out-of-date. The last update was done in 2007,
and local labor laws have changed since then. Guidance in 3 FAM 7224 requires that handbooks
be kept current and explain conditions of employment, ethical standards, and disciplinary

                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




processes. Absent accurate policies and procedures, American and local staff may disseminate
and work with incorrect information that could lead to poor decisions and possible lawsuits.

Recommendation 42: Embassy Berlin, in coordination with the Bureau of Human Resources,
should update its locally employed staff handbook to reflect current conditions of employment,
ethical standards, and disciplinary processes, including terminations, by January 1, 2012.
(Action: Embassy Berlin, in coordination with DGHR)

Customer Service

       Mission employees complained about poor customer service from both the Berlin and
Frankfurt human resources offices. American and local staff told the OIG team about receiving
inaccurate information and said that local staff does not always answer emails or phone calls.
The human resources staff does not provide timelines for projects or for the hiring process.
American officers do not provide explanations for delays or the reason why some requests are
turned down. The duties of the mission’s three American human resources officers have not been
explained to customers, leaving them uncertain as to which officer should be consulted. Several
human resources employees said they were understaffed and are frequently asked questions that
can be easily researched by customers.

       Informal Recommendation 9: Embassy Berlin should include in its new employee
       orientation a session on frequently asked personnel questions and answers and post these
       on the mission’s human resources intranet site.

       Informal Recommendation 10: Embassy Berlin should include customer service as an
       element in human resources staff position descriptions and performance evaluations.

        The mission has a total of 102 local employees in Consulates General Munich, Hamburg,
Dusseldorf, and Leipzig. Each consulate general has a local employee who, in addition to other
duties, is responsible for providing human resource services. These employees have received
inadequate training in human resources procedures and policies and applicable German law.
Therefore, they frequently need to contact Berlin or Frankfurt for guidance. Employees told
inspectors that staff from the human resource sections in Berlin or Frankfurt has visited the
consulates general only when there has been a reduction in force. While the four consulates
general do not require full-time human resources support, employees working there should have
the opportunity afforded their colleagues in Berlin and Frankfurt of being able to speak in person
with a human resources specialist.

Recommendation 43: Embassy Berlin should develop and implement a regular schedule of
visits by human resources staff to Consulates General Dusseldorf, Hamburg, Leipzig, and
Munich. (Action: Embassy Berlin)

Eligible Family Members

        Several issues involving employment opportunities and benefits for EFMs warrant
attention.


                                         36
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




        Employment opportunities for EFMs are limited, with only 16 percent of EFMs working
within the mission. With a hiring freeze now in effect and budget constraints expected to
continue through FY 2012, this percentage will decrease as EFM positions are not filled once
they become vacant.

         Another 18 percent of EFMs are hired on the local economy. This rate could be higher if
more attention was paid to identifying EFM employment opportunities outside the mission. The
mission had a global employment advisor based in Berlin who spent approximately 50 percent of
her time assisting EFMs with finding work. However, that position description was rewritten and
the local employee responsible for this task now spends only 5 percent of her time on EFM
employment issues, which is insufficient to assist EFMs with their job searches. Furthermore, the
type of jobs and the opportunities available in Berlin are different than in Frankfurt, Hamburg,
and Munich. Berlin, as Germany’s culture capital, relies heavily on tourism, while the other
cities are more business-oriented. Sixty percent of EFMs live in Frankfurt. The Frankfurt area
also has the largest concentration of U.S. companies, international organizations, financial
institutions, schools, and military bases with job opportunities for EFM employment. These
factors suggest that both Berlin and Frankfurt need a staff member to assist EFMs.

Recommendation 44: Embassy Berlin should modify a human resources assistant position in
Berlin and another in Frankfurt to include global employment advisor responsibilities. (Action
Embassy Berlin)

         Despite Department approval of four expanded professional associate positions, the
mission has filled only three of the four positions. These positions—the equivalent to entry-level
Foreign Service officer positions—are centrally funded and do not adversely affect mission
budgets. Embassy Berlin has filled its two positions; Consulate General Frankfurt has filled one
of its two slots. All three filled positions required only rudimentary German. The position
description for Frankfurt’s second position, however, requires fluency in German. The consulate
general has been unable to find an EFM who meets that requirement. It will be difficult to find
an EFM who has the required language proficiency, as it can even be hard for Foreign Service
officers receiving 36 weeks of intensive German training to reach this level.

       Informal Recommendation 11: Embassy Berlin should review the requirements for
       Consulate General Frankfurt’s unfilled professional associate position as well as the
       language requirement listed in the position description to ensure that it is accurate.

       In some instances, supervisors fail to provide EFMs with evaluation reports within the
appropriate time frame or do not complete them at all. EFM evaluations are not tracked with the
same regard as American officers and local staff, (b) (5)



Recommendation 45: Embassy Berlin should follow the same guidelines for preparing, tracking
and sending reminder notices for eligible family member evaluations as for locally employed
staff. (Action: Embassy Berlin)

       Department guidelines do not currently require supervisors to complete performance
evaluations for EFMs. This confusion is even found in the mission’s human resources office,
                                              37
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




where one supervisor left his position without preparing evaluations for seven EFMs. OIG teams
have also found this problem at other inspected posts. This lack of clarity may affect the 2,687
EFMs employed worldwide. It is a detriment to EFMs not to receive an evaluation and impacts
their prospective employment.

Recommendation 46: The Bureau of Human Resources should issue policy guidance and
standard operating procedures to Embassy Berlin for performance management of eligible family
members. (Action: DGHR)

        Because they are hired under differing salary schedules and differing authorities, EFMs
receive lower salaries than local staff performing comparable duties. They accrue 4 hours of
annual leave and sick leave per pay period while their counterparts receive 6 weeks’ vacation
and unlimited sick leave. The salaries of EFMs from foreign affairs agencies include
Washington, DC, locality pay but not the cost-of-living adjustment their spouses receive.
Spouses from non-foreign affairs agencies receive neither locality pay nor the cost-of-living
allowance. London and Tokyo have been granted an exception to the rule that employed EFMs
are ineligible for cost-of-living allowances.

Recommendation 47: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs, should request an exception for eligible family members in Germany to
Department regulations limiting cost-of-living allowances to Foreign Service officers. (Action:
Embassy Berlin, in coordination with EUR)

Locally Employed American Citizen Tax Issues

         Mission Germany pays the employer portion of mandatory medical insurance directly to
its local employees as part of their salary. They, in turn, are responsible for paying both the
employer and employee shares to their insurance company. The Department reports these
insurance stipends as income on tax forms provided to the approximately 138 local-hire
American citizens each year. Because this information is provided on the employees’ W-2 form,
American employees hired locally are taxed on both the employee and employer contributions
for medical insurance. In the United States, medical contributions are normally made through
payroll deduction. This option is unavailable at an overseas diplomatic mission. Local-hire
Americans believe they should not be taxed on the employer portion of their medical insurance
since they have to pay it directly to the insurance company. They have pressed the embassy on
this issue since 2000 without resolution.

Recommendation 48: Embassy Berlin, in coordination with the Bureau of Human Resources,
the Bureau of Resource Management, and the Office of the Legal Adviser, should issue an
authoritative ruling on whether it is possible to provide the employer portion of mandatory
medical insurance in a way that distinguishes it from salary income. (Embassy Berlin, in
coordination with DGHR, RM, and L)

Overtime

        Facing budget constraints, the embassy issued a management notice barring overtime pay
and directing supervisors to offer compensatory time instead. As outlined in 3 FAM 3133.5,
entry-level officers and specialists who work overtime have the right to choose whether they
                                                38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




receive overtime pay or compensatory time. The embassy’s ruling appears inconsistent with
rights spelled out in the FAM. At the OIG team’s suggestion, the embassy has requested
guidance from the Department.

Recommendation 49: Embassy Berlin should follow Department regulations regarding the
payment of premium compensation to eligible specialists and entry-level officers and should
issue a management notice to that effect. (Embassy Berlin)

Language Training

        The Department has wisely devoted considerable resources to providing German
language training to officers assigned to Mission Germany. The political section alone has six
officers with 4/4 proficiency or above, and two with 3/3 proficiency. The economic section has
two officers with 4/4 proficiency or above, and four with 3/3 proficiency. All use German
extensively in professional settings, including public speaking. Interviews with officers across
the spectrum—from law enforcement to consular to public diplomacy—confirmed that
professional language skills are essential to operating effectively in Germany.

      Most political, government, and business elites speak English well, but they prefer to
conduct business in German. In this respect, Germany differs from many other Western
European countries where English is commonly and easily used in professional settings.

        The Foreign Service Institute recently extended basic German training from 30 to 36
weeks, which should help to address a number of concerns the inspection team heard about the
time allotted to German language training being too short. The embassy views language training
as essential and takes a keen interest in it. It recently completed a training survey with other
German posts and plans to forward the findings to the Foreign Service Institute.

General Services

        The general services office provides adequate levels of support to its customers. The
ICASS customer satisfaction survey and OIG questionnaire results approximated worldwide and
regional bureau averages. The prospect of budget cuts has created a difficult atmosphere in
which to operate and plan. General services offices are feeling the effect of the missionwide
hiring freeze, which some local staff fear is a prelude to another reduction in force. Nonetheless,
OIG inspectors found that by and large, general services staff members at the embassy and
constituent posts are performing their duties effectively.

        The planned July 2011 implementation of the Integrated Logistics Management System
(ILMS) is a potential watershed for general services offices missionwide as it will unite
procurement and property management into one application. Automation of these two major
components of the supply chain should impose greater procedural discipline and reduce variation
and errors. OIG team recommendations pertaining to receiving and billing should result in
further improvements that enhance internal controls and conform to prescribed supply chain
practices. ILMS also will create, for the first time, a software platform that is common to the two
procurement offices that provide services to the consulates general, Embassy Berlin, and the
regional procurement services office located in Frankfurt.

                                          39
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED



         Mission use of eServices (the Department standard for submitting requests for
administrative services and measuring performance against universal standards) is spotty.
Service provider confidence in eServices is not high. The mission’s establishment of customer
service centers in Berlin and Frankfurt is intended to facilitate delivery and yet represents an
additional bureaucratic layer. Incomplete fielding and system shortcomings produce insufficient
statistics with which to judge service delivery against the Department’s universal standards.
Mission Germany therefore looks forward to the successor application to eServices.

         General services operations at the consulates general function soundly on the whole. In
Frankfurt, officers have assessed assets and processes, reengineering some of them to increase
effectiveness. Moving the receiving point to a more sensible location, digitizing records in
SharePoint, eliminating leased warehouse space, and eliminating redundant positions through
attrition are examples of these cost-saving measures. Munich has taken an exemplary approach
to eliminating the need for a U.S. direct-hire general services officer, instead empowering a
seasoned local staff member to act in that capacity. The result is a well-functioning, compact,
cross-trained unit that provides services that earned very high ratings on ICASS and OIG
surveys. The three small consulates general have experienced and knowledgeable local
employees. Due to the small size of their staffs, the employees are cross-trained in all aspects of
general services operations.

Customs and Shipping

       In addition to customs clearances and shipment of household effects, unaccompanied
baggage, and vehicles, Embassy Berlin’s customs and shipping unit is responsible for additional
services including vehicle registration, driver licenses, and weapons permits. The office also
administers a missionwide insurance contract for government and privately owned vehicles.
Working with the European Logistical Service Office in Antwerp, the unit coordinates shipments
based on the most appropriate method, whether International Through Government Bill of
Lading or Direct Pack Method. Shipments are generally split evenly between the two methods.
The unit also annually handles 15 to 20 shipments via military channels, which it coordinates
with military headquarters at Stuttgart.

       The consulates general conduct customs and shipping operations equally well. Some,
such as Frankfurt, are taking advantage of tools like SharePoint to organize and store files and
correspondence more efficiently. The smaller consulates general receive customs and shipping
support from either Berlin or Frankfurt.

Property Management

       Embassy Berlin’s property management office operates efficiently, observing proper
procedures, exercising proper internal controls, and maintaining adequate separation of duties.
The most recent nonexpendable property inventory showed a shortage of 19 percent, well within
the Department’s limit of 1 percent of total value.

        Spot checks of residential inventory records indicated good accountability, as employees
routinely sign their individual inventories and return them to the property unit. Compliance with
this basic requirement is attributable to the unit’s effective reminder system. Property disposal is

                                          40
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




also well documented, with proper signatures and adequate oversight. An OIG inspector selected
five nonexpendable items at random and the warehouse staff located each one.

         Consulate General Frankfurt has made significant efforts to improve its property
management program, from paring down its warehouse needs to strengthening its information
technology equipment accountability to automating some of its business processes. Changes to
its logistics management—particularly disposal of unserviceable/unneeded inventory and more
rational ordering of furniture—have allowed Consulate General Frankfurt to return to the
landlord about 45 percent of its off-site warehouse space. It plans to return the remainder of the
space in fall 2012 and consolidate holdings in a U.S. Government-owned facility on the Siedlung
compound. This plan should save about 300,000 euros annually in warehouse lease costs. In
another effort to trim costs, the office has also modified the use of contract labor that augments
the five-person warehouse moving crew, using them more judiciously and on an as-needed basis.

         The Frankfurt assistant general services officer responsible for property management has
implemented changes that increase efficiency and improve accountability. For example, the
process for assigning responsibility and charges for lost property—most often cellular phones—
is now handled electronically using eForms, with both the employee responsible for the loss and
his/her supervisor signing the form. Routing the form electronically has reduced the time needed
to administer this procedure from 2 months to about 3 days. The consulate general also has taken
a different tack on disposing items, doing due diligence and developing a business case that
justifies donation of many items to a charity. Combined with its disposal of items via online
auction, the consulate general has the means to dispose of unneeded items as efficiently as
possible while minimizing costs to the U.S. Government.

       There are several areas for improvement. An estimated 25 percent of employees have not
signed residential inventories despite reminders sent by unit staff. One employee was late 206
days, and counting, in returning his signed inventory.

Recommendation 50: Embassy Berlin should develop and implement a plan that requires
Consulate General Frankfurt employees to sign residential inventories in a timely manner.
(Action: Embassy Berlin)

        Proper receipt of goods and services, a critical step in the supply chain management
process, requires further improvement. The assistant general services officer sensibly moved the
central receiving point from the off-site warehouse to the consulate compound where most goods
and services eventually wind up. Receiving faces another challenge. Both the regional
procurement office and Embassy Berlin provide procurement services, and each uses a different
automated system to which the receiving clerk has no access. The clerk instead relies on
hardcopy purchase orders they send him as notification of incoming shipments. This is an
imperfect system that bypasses normal channels and weakens property accountability. Mission
Germany’s transition to ILMS will provide a common automated system that yields a better
receiving process.

Recommendation 51: Embassy Berlin should implement a plan that provides the Consulate
General Frankfurt receiving clerk with access to procurement data that enables proper receiving
of goods and services. (Action: Embassy Berlin)

                                         41
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED



        Consulate General Munich manages its property program efficiently, relying on a small
staff augmented by contract labor as needed. Annual inventory documentation was complete. A
spot check of 10 residential inventory files showed that they were all signed by employees,
thereby establishing correct accountability. The consulate general maintains storage space in a
building on the International Broadcasting Bureau property that is deemed more expensive to
dispose of than to retain.

        Property management at the three smaller consulates general appears to run well.
Receiving reports and other paperwork is in order and inventories are completed on time.
However, the annual inventories are reconciled by the same person who does the actual
inventory, which represents a management vulnerability. With such small staffs, it is difficult for
the consulates general to maintain proper separation of inventory duties. None of the consulate
staff involved was aware that this could present a problem.

Recommendation 52: Embassy Berlin should develop and implement a plan to provide
assistance to the smaller consulates general to ensure that inventories are recorded and reconciled
by different mission staff members. (Action: Embassy Berlin)

Travel and Visitor Support

       The embassy’s travel and visitors office provides adequate service, particularly its
management of numerous important visits, its administration of a multipost travel management
contract, and its processing of thousands of visas annually for mission and other U.S.
Government personnel who travel internationally from Germany. The embassy issued two
business class airline tickets during the 12 months prior to the OIG inspection. Both were
properly processed and documented.

         Embassy Berlin provides visa services for U.S. Government entities located in Germany,
including the regional offices in Frankfurt and two major military commands in Stuttgart. The
workload is about 3,000 visas annually, with military personnel comprising 60 percent of that
total. Information is posted to a SharePoint site for download, completion, and forwarding to the
embassy for processing.

         Consulate General Frankfurt shoulders a heavier visitor workload than Berlin due in large
part to its proximity to three U.S. military bases. It provides logistical support for over 300 visits
per year that generate about 5,700 hotel night stays annually. The office also administers the E2
Solutions travel application, which includes 550 account holders; coordinates E-Country
Clearance requests; and oversees the consolidated billing account against which travel expenses
are charged.

Housing

        Embassy Berlin has improved its housing pool with the acquisition of more residences
for mid-level employees and apartments for those who prefer to live downtown. Employees are
generally satisfied with their housing assignments. Examination of records indicates that the
interagency housing board functions in accordance with Department guidance. The embassy has
been a longtime participant in OBO’s Rental Benchmark Initiative and consistently maintained
its “green” status.
                                               42
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




       After having outsourced management of its short-term lease properties for years, the
embassy conducted a cost-benefit analysis that indicated in-house administration would be less
expensive. The embassy housing office deemed automation as the key to minimizing the staff
needed to manage the leasehold inventory and developed its own application, the Housing Office
Management Entry System, to track contracts, utilities, and rent payments. Planned capabilities
include generating management reports and maintaining historical repair data, and unit
dimensions to facilitate contractor make-ready solicitations. The housing office inaugurated the
application in April 2011.

       As the embassy increases its residential short-term lease inventory, it faces a continuing
challenge in using the OBO model lease with local landlords, in large part due to their reluctance
to accept the two-page disputes resolution clause required by the Contracts Dispute Act of 1978.
German posts therefore submit a waiver request for each lease, which is routinely granted.
Obtaining a blanket waiver would be more efficient.

       Informal Recommendation 12: Embassy Berlin should request a blanket waiver from
       the Bureau of Overseas Buildings Operations pertaining to the disputes resolution clause
       of the residential model lease.

        Consulate General Frankfurt manages a housing program that includes 372 U.S.
Government-owned apartments clustered on the Siedlung compound, as well as short-term lease
residences. Embassy Berlin assists with payment of leases and with managing utilities
agreements and payments. In accordance with 15 FAM 261.1, the Frankfurt housing board gives
first consideration of Siedlung housing to U.S. direct-hire employees of foreign affairs agencies
and the Defense Intelligence Agency. To provide flexibility and still maintain fair cost sharing,
the post allows non-foreign affairs agency personnel to occupy government-owned quarters if the
agency offsets costs incurred by the displaced foreign affairs agency employee who must be
housed in a short-term lease residence.

        Frankfurt’s housing assignment process generally adheres to Department guidance, but
one appeal stood out as improperly adjudicated by the Bureau of European and Eurasian Affairs.
The Frankfurt housing board, the consul general, and the DCM denied the appeal, but the
appellant pursued the case further with the bureau’s executive office. Rather than fulfilling the
15 FAM 212.4-2 guidance of consulting OBO and determining whether the issue warranted
consideration by the Washington interagency housing board, the regional bureau executive
directorate overturned the consulate general’s previous decisions and granted the appeal. That
the executive director was the reviewing officer on the employee evaluation report of the
appellant created the appearance of a conflict of interest.

       Spot checks of housing files at all Mission Germany posts indicated general compliance
with Department guidance and mandatory security and safety inspections were properly
documented. Consulate General Munich, however, has been using emails instead of written
records to document housing board minutes. Such written records are required by 15 FAM
212.3.



                                         43
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED



       Informal Recommendation 13: Embassy Berlin should require Consulate General
       Munich to document the proceedings of its interagency housing board meetings in written
       records.

        Consulate General Munich’s housing program generally works well and employees are
satisfied with residences, most of which are located near the consulate compound. German
Government stimulus program funding paid for a comprehensive $3.4 million renovation project
completed in June 2011. The Marine security guard quarters occupy the ground floor of one of
the three buildings.

Procurement

        Embassy Berlin and Consulate General Munich maintain their own procurement
operations. The remaining consulates general rely on the embassy and/or the regional
procurement services office in Frankfurt for procurement services. While this model consolidates
certain administrative functions and minimizes duplication, several glitches exist. The regional
procurement office uses ILMS Ariba as its automated system but none of its clients have access
to ILMS so the office sends hardcopy receiving reports for users to complete in order to
document receipt of the goods and services. The upcoming implementation of ILMS in Germany
should help eliminate inefficiencies that now exist.

        The embassy’s supply chain management processes do not include a mechanism for the
financial management office to advise the procurement office of final payment on purchases. The
procurement office therefore cannot properly close out purchase orders and retire records, per the
guidance contained in Chapter 2 of the Department’s Overseas Contracting and Simplified
Acquisition Guidebook.

Recommendation 53: Embassy Berlin should develop and implement a procedure so that the
procurement office is notified of final payments in order to properly close out purchase orders.
(Action: Embassy Berlin)

        A spot check of procurement files in Berlin and Munich showed adequate attention to
detail. Most files were complete. Sole source justifications in Berlin, particularly for software
development procurements, could be strengthened by including more detail, including supporting
statements from the requesting office.

       Informal Recommendation 14: Embassy Berlin should include a full and written
       explanation for the contract file for sole source acquisitions of commercial items per the
       Overseas Contracting and Simplified Acquisition Guidebook.

        Mission Germany posts participate in a Bureau of European and Eurasian Affairs-
sponsored program that seeks to minimize warehousing needs by outsourcing expendable
supplies and using just-in-time delivery of furniture. Nevertheless, the mission still orders large
quantities of furniture that require storage, particularly in Berlin and Frankfurt. Payment by other
agencies into the furniture pool drives some of these purchases, as those funds must be obligated
by a certain date. In addition, agencies are eager to liquidate their financial obligations. The
ICASS Service Center has a mechanism by which other agency funds are converted to ICASS

                                          44
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




funds, allowing more time for them to be obligated. Using this mechanism should allow other
agencies to adopt just-in-time furniture delivery and reduce warehousing expenses.

       Informal Recommendation 15: Embassy Berlin should use the International Cooperative
       Administrative Support Services Service Center’s mechanism for processing furniture
       pool collections and reallotting them to the constituent posts’ International Cooperative
       Administrative Support Services allotment as a means to increase transparency,
       rationalize furniture purchases, and reduce warehousing.

Media Support Office

        The 2004 OIG report recommended elimination of in-house printing operations, to the
extent practicable. Embassy Berlin has pared down staffing in its media support office from five
to three local employees. It also recently completed a cost-benefit analysis that justified the
continued existence of the office. As printing is clearly a commercially available service, the
media support office warrants periodic examination to determine whether it is more efficient
than outside commercial services.

Motor Vehicle Operations

        Motor pool operations have been trimmed in recent years. The mission now relies on a
smaller cadre of in-house chauffeurs, particularly in Berlin and Frankfurt, and outsources as
much as possible to commercial taxi services. Embassy Berlin has five drivers on staff;
Consulate General Frankfurt has six. The motor pools provide adequate driving, vehicle
maintenance, and fuel management services, though some areas such as driver training and
safety require improvement.

        Embassy Berlin’s operations are efficient, with well-defined processes, accurate
documentation, and sound management. The section converted from its own automated system
to WebPASS vehicle registration and management but considers it a step backwards. It therefore
looks forward to the release of the replacement software and has participated in the development
working group. In the meantime, the dispatcher uses WebPASS augmented by his own
spreadsheets. Requests are received via eServices about 50 percent of the time.

        Drivers frequently exceed the 10-hour limit on daily duty time set by paragraph F7 of the
Department’s Motor Vehicle Safety Management Program for Overseas Posts, thereby
increasing the risk of fatigue-related accidents. In 2010, for example, Berlin drivers exceeded the
limit 308 times, with front office drivers accounting for 280 of them. The smaller consulates
general in Hamburg and Dusseldorf, each of which has one driver, also exceed the 10-hour limit
on daily duty time. Consulate General Leipzig, which also has one driver, adheres to the 10-hour
rule. All three consulates general contract with outside drivers as needed.

Recommendation 54: Embassy Berlin should develop and implement a plan to ensure
missionwide adherence to the Department’s limit of 10 hours for a driver’s daily tour of duty.
(Action: Embassy Berlin)

        Although Embassy Berlin adheres in general to Department motor vehicle guidance, it
has not updated its vehicle policy memorandum as required by 14 FAM 432.5. An April 2008
                                             45
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




policy statement addressed motor pool operating procedures and referred to a mission motor
vehicle policy, but these documents do not fulfill the annual update requirement.

Recommendation 55: Embassy Berlin should update and publish its vehicle policy
memorandum. (Action: Embassy Berlin)

        Consulate General Frankfurt’s motor pool provides generally adequate services and has
improved recordkeeping, particularly with inventory and vehicle usage data. However, Smith
System driver training, which is addressed elsewhere in this report and for which the motor pool
is responsible, has lagged and should be resumed. In addition, expendable supplies are stored in
open shelves in the garage and are subject to pilfering.

Recommendation 56: Embassy Berlin should require Consulate General Frankfurt to store its
expendable automotive parts and supplies securely to prevent theft. (Action: Embassy Berlin)

       A spot check of a dozen trip tickets in Frankfurt indicated that passengers are not signing
these documents, undermining accountability.

       Informal Recommendation 16: Embassy Berlin should require Consulate General
       Frankfurt to complete trip tickets for motor pool trips, including passenger signatures
       where appropriate.

       Consulate General Munich’s motor pool is well run, thanks in large part to a local
employee with significant experience and knowledge in vehicle operations and maintenance. He
uses WebPASS to the maximum extent possible and has developed a custom checklist for
mechanics that combines Diplomatic Security, manufacturer, and Department safety
requirements. All three local motor pool staff are master mechanics and can complete repairs and
services that normally would be outsourced. Dispatching and maintenance records are in order.

Facilities Management

        The relatively spacious and functional space throughout the mission belies ongoing
significant challenges to the effective maintenance, improvement, and disposition of facilities
and real estate in Germany. Among these challenges are: absence of continuity and personnel
turmoil in key facilities management positions in Berlin and Frankfurt; lack of appropriate
technical local staff to support the new chancery building; need for multimillion dollar
investment for renovation and upgrades of facilities in Berlin and Frankfurt; and proper
disposition of unneeded real estate.

        These and other issues described below exist within the context of personnel challenges.
The senior facilities manager position has been filled with annuitants since November 2009.
While that is a reasonable stopgap measure, it does not promote stable and consistent leadership.
A permanent senior facilities manager is scheduled to arrive in August 2011. The embassy
continues to seek local qualified and capable technicians to maintain chancery systems.
Electricians, ventilation and air conditioning technicians and building automated system
specialists have been especially difficult to recruit.


                                          46
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




         Embassy Berlin occupies three buildings in the city: the downtown chancery building, the
office building annex on Clayallee, and the general services complex on Curtiusstrasse. The
latter two are about 30-45 minutes by car from downtown, which presents a challenge to
communication and coordination.

         The chancery building on Pariser Platz was commissioned in 2008. Funding and security
considerations resulted in the elimination of one floor and the basement, as well as reduction of
the footprint of the building. The loss of the basement and one floor significantly affected the
facility. Systems that originally were to be located in the basement had to be moved, with
detrimental effects. For example, the backup generator was installed on the roof and produced
significant vibrations that required a dampening system to correct. Redesign of systems, such as
heating, ventilation, and air conditioning, appears to have caused problems as well, with
components located in areas that are difficult to access for maintenance or repair.

         The building continues to have nagging ventilation, air conditioning, and pressurization
problems. Since 2008, employees have submitted 221 work requests to adjust the temperature in
their work areas. The embassy and OBO have separate contracts with a U.S.-based company to
assess, maintain, and repair the system. The contractor, in Berlin for a regular visit during the
OIG inspection, explained some of the challenges in correcting deficiencies in the system. He
cited a dirty water system that required repeated flushing and cleaning to ensure constant flow of
water used to cool air in the system. He also cited the location of air registers and the forced cold
air as factors that discomfort some employees. The contractor has adjusted the system, including
increasing the temperature of heating cores during the winter. Complaints appear to have tapered
off, but the OIG team still heard complaints regarding the cold temperature and its effect on
employees’ health.

         The chancery facilities manager cited the lack of as-built drawings as a major problem in
addressing ventilation-related problems. OIG team inquiries to OBO revealed that it had sent a
partial set of drawings to Embassy Berlin in January 2010, during the transition between one
temporary duty facilities manager and another. The embassy contacted OBO for the rest of the
drawings during this inspection. The lack of as-built drawings has hindered proper maintenance
and repair of the chancery. The condition will worsen over time if changes continue to be made
without being accurately depicted in updated plans. Moreover, the inaccurate drawings will
result in additional maintenance and repair costs as technicians navigate using a flawed map.

Recommendation 57: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin, should provide the embassy with complete and accurate as-built drawings of the
chancery building. (Action: OBO, in coordination with Embassy Berlin)

       The facilities staff has faced change management challenges as well, particularly with
local employees who are unaccustomed to buildings that rely solely on air conditioning and that
do not have windows that open to allow fresh air to circulate. The local staff also was
unaccustomed to chlorinated water, which is used in drinking fountains and taps throughout the
building. The facilities manager conducted air and water testing that has indicated no health
hazards, but some staff remain unconvinced. Many employees also are unaware of efforts to
address ventilation-related deficiencies and the prognosis for resolving them in the longer term.
The facilities management office could do a better job communicating with its customers and
updating them on these issues.
                                                 47
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





       Informal Recommendation 17: Embassy Berlin should disseminate to its staff the latest
       information on assessment of drinking water quality and efforts to address heating,
       ventilation, and air conditioning deficiencies.

        Most chancery work spaces consist of cubicles with 64-inch-high partitions that do not
afford privacy, particularly for those who regularly discuss sensitive or personal information,
e.g., human resources section staff. Moreover, cubicles are not segregated by section, so the
human resources section cubicles are adjacent to economics section cubicles. Options to ensure
privacy include raising selected partitions or identifying reasonably available meeting rooms for
discussions.

Recommendation 58: Embassy Berlin should design and adopt means to facilitate greater
workspace privacy, particularly for the human resources office. (Action: Embassy Berlin)

        The Marine security guard quarters are in a short-term lease property under an agreement
with the Government of Germany that expires in 2014. A private firm has purchased and plans to
develop the property, so the embassy does not expect to be able to renew the lease. The embassy
has been unable to identify an alternative property that meets space, location, security, and cost
considerations. As an alternative to a leased property, the embassy has explored with OBO an
option to reconfigure top-floor space in the Clayallee building as a Marine house. This option
would make better use of U.S. Government-owned property and eliminate a recurring lease cost,
currently about $160,000, that will certainly increase with a new short-term lease.

Recommendation 59: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should develop and implement a plan to convert the top floor of the Clayallee
building into the Marine security guard detachment quarters. (Action: Embassy Berlin, in
coordination with OBO)

        The embassy and OBO are developing plans to renovate the Clayallee building at an
estimated cost of $43 million. In the meantime, a roof repair funded through ICASS was
underway during the OIG inspection. According to the embassy, planning for the roof repair
started before the building became U.S. Government-owned. The embassy believes it had
permission from OBO to use almost $700 million in ICASS funds to pay for it, but neither OBO
nor the embassy has documentation on the agreement.

          Consulate General Frankfurt’s facilities management section is now fully staffed with its
authorized U.S. direct-hire complement. Local staffing is relatively lean and the loss in January
2011 of a key senior journeyman has left a gap that the facilities manager very much would like
to fill. The position, however, is affected by the missionwide hiring freeze. The facilities
manager also anticipates a shortage in cleared American escorts, as the three incumbents will
depart Frankfurt soon and it is unclear if those positions will be filled. In spite of personnel
challenges, the section functions well. With routine maintenance and repair funding now being
allotted based on square footage of space, Frankfurt now receives about 72 percent of the
mission total and is therefore more satisfied on that front.

       Despite the original intent of a turnkey operation at the Frankfurt consulate compound,
the Department has spent about $24 million in further improvements as part of a four-phase
                                                 48
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




project that began in 2009 and is expected to continue for another 12 to18 months. The total cost
could reach between $45 million and $50 million. Much of the work consists of infrastructure
improvements, such as expanding the sprinkler system, improving elevators, and installing air
conditioning.

Safety, Health, and Environmental Management

        The safety, health, and environmental management programs in Berlin and Frankfurt
have languished. Managers made efforts to improve the programs in fall 2010, but need to put
more emphasis on the program to sustain the improvements. The embassy resurrected its safety,
health, and environment committee, which met in January 2011 for the first time since 2007. In
accordance with 15 FAM 933.2 a., the committee should meet at least twice a year, with the
DCM chairing. Lack of attention also has caused training to slip. Berlin, Munich, and Leipzig do
not have a trained local staff assistant post occupational safety and health officer. Hamburg,
Leipzig, Munich, and Dusseldorf do not have trained U.S. direct-hire safety and health officers.

        Many aspects of driver training, safety, and qualifications in Frankfurt require attention.
The consulate general has been without a Smith System driver safety trainer for years. In
addition, Consulate General Frankfurt maintains a self-drive program that includes local and
U.S. direct-hire employees, but there is no system to verify licensing, driver training, and
medical fitness of the drivers as required by the Department’s Motor Vehicle Safety
Management Program. Embassy Berlin has provided Smith training to Consulates General
Leipzig and Hamburg drivers but has yet to provide training to the full-time and incidental
drivers in Consulate General Dusseldorf.

Recommendation 60: Embassy Berlin should implement the Department’s Motor Vehicle
Safety Management Program, to include Smith System driver training and monitoring all driver
qualifications throughout the mission. (Action: Embassy Berlin)

         Consulate General Frankfurt employees were cited for speeding violations 105 times
between January 2010 and May 2011. In February 2011, the consulate general created a database
to track these violations and has made 35 entries thus far. U.S. direct-hire employees comprise
the vast majority of violators, with a few agencies and offices accounting for the majority of the
tickets. The consulate general does not have a policy that prescribes remedial training and/or
corrective action in cases of poor driving behavior.

Recommendation 61: Embassy Berlin should implement a plan to monitor traffic violations
committed by employees and to administer appropriate training and corrective action to repeat
offenders. (Action: Embassy Berlin)

        The American citizen services waiting room has only one means of egress. The
deficiency was not noted in OBO inspections. Occupational safety and health standards (29
C.F.R. §1910.36(b)(1)) require that at least two exit routes must be available in a workplace to
permit prompt evacuation of employees and other building occupants during an emergency.




                                          49
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Recommendation 62: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should bring the Consulate General Frankfurt American citizen services waiting
room into compliance with fire egress standards. (Action: Embassy Berlin, in coordination with
OBO)

        Consulate General Munich maintains a satisfactory safety and health program as
exemplified by its driver training program, its detailed documentation, and its efforts to close out
the most recent OBO inspection report. The Smith System trainer maintains proper records that
show whom he has trained and when refresher training is due. Accident reports also are in good
order. An OIG inspector reviewed with the general services specialist the online status of the
latest OBO safety and health report and found all deficiencies closed out.

Information Management and Information Security

        Mission Germany’s information management program is adequate and meets the basic
information technology and communication needs of a diverse customer base. The program can
benefit, however, from improved collaboration and closer oversight by the information
managers. The program is structured so that all the decision points and major information
systems are located in Embassy Berlin. The program consists of computer, mail, pouch, radio,
and telephone support for the embassy and the five consulates general.

        Inadequate collaboration between the embassy and the consulates general has weakened
the quality of guidance and support provided to the posts. It has also created uncertainty in
missionwide initiatives such as the consolidation of switchboard operations. In addition, the lack
of closer oversight by the information managers has resulted in deficiencies in areas such as local
software development, information technology contingency planning, information technology
configuration, and change management. Other deficiencies include the absence of adequate
planning for the emergency and evacuation radio program, telephone equipment configuration,
and the Department’s regionalization programs support.

         The information management officer recognized some of the deficiencies before the start
of this inspection and initiated corrective measures before the OIG team arrived. The information
management officer has also defined communication, collaboration, and improved customer
service as the office’s top priorities.

Consulate Support

       Out of the five consulates general, only Frankfurt and Munich have direct-hire
information management staff. Consulates General Hamburg, Leipzig, and Dusseldorf depend on
Embassy Berlin for guidance and support. Leipzig and Dusseldorf have one local computer
operator each assigned to provide onsite information management support. In addition to their
primary duties, these local employees also have other collateral duties that range from
subcashiering to mail distribution and human resources duties.

       The sole local staff computer operators in Hamburg, Leipzig, and Dusseldorf have
learned to be self-reliant in order to keep the critical systems operational and assist users with
computer problems. During this OIG inspection, the local employee computer operator in
Hamburg resigned, leaving the consulate general without onsite computer support. The embassy
                                                   50
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




plans to provide support remotely and does not plan to replace that employee. To date, Embassy
Berlin has not provided a detailed and standardized plan for supporting the consulate general.

Recommendation 63: Embassy Berlin should create and implement a detailed plan to provide
information management support to Consulate General Hamburg from Berlin, including how the
embassy will support routine services as well as emergencies. (Action: Embassy Berlin)

        Embassy Berlin, which supports Leipzig, and Consulate General Frankfurt, which
supports Dusseldorf, have not provided the oversight and mentoring necessary for the success of
the local staff computer operators. This lack of oversight and training has limited the
effectiveness of the information systems in these posts. Indicative of these deficiencies, a
Department OpenNet workstation, with a Bureau of Consular Affairs image, was mistakenly
connected to an Internet-only network. While the Department allows for older OpenNet
workstations to be used on the Internet network, the workstation must first be re-imaged and any
Department specific applications removed. Using an OpenNet workstation on the Internet-only
network exposes the security of the Department’s sensitive-but-unclassified computer system to
outsiders.

         Neither Embassy Berlin nor Consulate General Frankfurt have been conducting routine
visits for consultations or operational reviews. Visits to Leipzig and Dusseldorf are usually made
to address immediate issues or to familiarize newly arrived information management staff with
consulate operations. While the local staff computer operators have been able to maintain and
keep the essential business systems operational, these employees have been reluctant to ask for
any technical assistance or mentoring beyond solving an immediate problem.

Recommendation 64: Embassy Berlin should create and implement standard operating
procedures for formal information management consultations and operational review visits by
Embassy Berlin and Consulate General Frankfurt personnel to Consulates General Leipzig and
Dusseldorf. (Action: Embassy Berlin)

       The OIG team concluded that the two local computer operators solely supporting the
information technology systems at Consulates General Leipzig and Dusseldorf do not have
adequate training to manage the Department’s OpenNet system. Having a trained information
technology staff is imperative for effectively maintaining the Department’s systems.

Recommendation 65: Embassy Berlin should develop information technology training plans for
the locally employed computer operators at Consulates General Leipzig and Dusseldorf. (Action:
Embassy Berlin)

Local Software Development

       Mission Germany has several locally developed applications that have been adapted by
the Department and other embassies around the world. Two examples are the Contact
Management Database application, which is used by several posts to track contacts and was
developed by the mission in collaboration with the Frankfurt Regional Support Center, and
eVoucher, which was recently adopted for Department-wide use by the Bureau of Information
Resource Management. (b) (5)

                                         51
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSFIED



                                                           The applications were designed and
     developed by a local contractor, who has worked for the mission and the regional support center
     for more than 20 years, without close government oversight or adherence to the standard system
     development life cycle (SDLC) process. Recently, Embassy Berlin realized that the contractor’s
     security clearance had expired. This problem was quickly corrected during the inspection.
(b) (5)




            Failure to conduct thorough testing and design review of the eVoucher application before
     deployment has led the mission to spend a considerable amount of financial and human resources
     to address significant performance issues. Since 2009, network bandwidth, routers, and
     encryption devices were upgraded to address performance issues with the application.

     Recommendation 66: Embassy Berlin should develop, document, and implement a system
     development life cycle process for locally developed applications. (Action: Embassy Berlin)

     Recommendation 67: Embassy Berlin should create and implement a standard operating
     procedure for software developer contractor oversight and systems access control. (Action:
     Embassy Berlin)
                                                   52
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





        The Federal Information Security Management Act of 2002 requires that all Federal
systems undergo a thorough certification and accreditation process to ensure that adequate
security controls are in place to protect the information processed by the system. The Bureau of
Information Resources Management’s information assurance office is the designated certifying
and accrediting office for the Department. All applications that store personally identifiable
information and privileged medical data must be certified and accredited before becoming
operational.




Recommendation 68:



       (b) (5)




       (b) (5)




Recommendation 69: (b) (5)




Local Information Technology Change Control Board

       Embassy Berlin has a missionwide local information technology change control board.
The board is ineffective, however, in controlling and documenting hardware and software
changes throughout the mission. The lack of control has resulted in over 50 printer models on the
Berlin network and the installation of locally developed applications without proper vetting. The
board is not involved in the review and approval of local software development efforts nor was it

                                         53
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




included in the plan to transfer eVoucher application ownership from the embassy to the Bureau
of Information Resource Management.

        Additionally, the roles and responsibilities of the members are not defined or
documented. The board charter names the consulates general as voting members but does not
cover their roles and responsibilities in vetting products and liaising with the users. Some users
expressed concerns to the OIG team about delays in communication with the local change
control board and lack of clarity as to who should be contacted for updates.

       The functions of the local change control board are discussed in 5 FAH-2 H-412.9. At a
minimum, the goal of the board is to identify and track hardware and software assets placed on
the Department’s network for effective change management. Further, it has to be done
collaboratively throughout the mission.

Recommendation 70: Embassy Berlin should establish and implement standard operating
procedures for the local information technology change control board and define the roles and
responsibilities of the consulates general. (Action: Embassy Berlin)

Regionalization Program Support

        Mission Germany does not have a service-level agreement with the Bureau of
Information Resource Management outlining requirements to host and support the Department’s
regionalization programs such as NexGEN and data-off-shoring. These programs require 24/7
support and server room capacity planning for space, power, and air conditioning/cooling. The
NexGEN project, or regional communication hub hosted in Frankfurt, is going global in summer
2011 and will support over 50 posts. The data-off-shoring program is still in the concept phase,
but Consulate General Frankfurt has been named to host and support the infrastructure.
Information managers there were unclear as to what services and staff will be required to support
these programs or which cost center should be used to cover expenses.

        Although centralized monitoring and support is provided by the Department, NexGEN
infrastructure components receive local operations support from Frankfurt’s information service
center. Since the pilot installation in 2010, the service center staff has assisted the Bureau of
Information Resource Management with troubleshooting network latency problems and outages.

         The information service center staff is paid with ICASS funds, and its primary task is to
support the ICASS customers that rely on the consulate general’s sensitive-but-unclassified
network. Using ICASS positions to support non-ICASS programs is not in line with the basic
principles of cost distribution in ICASS as referenced in 6 FAH-5 H-312. These support
activities also compete with the staff’s primary responsibilities.

Recommendation 71: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Information Resource Management, should develop and
implement a service-level agreement with the regionalization program owners. The agreement
should outline expected services, resources, and cost centers to support regionalization programs.
(Action: Embassy Berlin, in coordination with EUR and IRM)


                                          54
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSFIED





    Recommendation 72:




(b) (5)




    Recommendation 73: (b) (5)


    Recommendation 74: (b) (5)


                                             55
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Telephone Switchboard Consolidation

       Embassy Berlin, working with the Bureau of Information Resource Management, has
procured telephone equipment to centralize mission telephone operations in Berlin, providing
telephone service 24 hours per day for the mission.
                                                              As of the time of the inspection,
however, the embassy did not have a plan in writing to that effect. No delivery or installation
date has been established for the centralized operation.

        When this new equipment is installed, Berlin expects to manage all incoming calls to the
embassy and all consulates general from one location. While centralizing telephone operations
should save money and improve operating efficiencies, the embassy has not collaborated with
the consulates general, adequately planned for the consolidation, or established performance and
service-level goals. These goals should incorporate the five constituent posts’ current and future
telephone needs and establish criteria for after-hours calls, staffing needs, and possible
reductions-in-force.




      Planning has not been completed due to competing priorities within the information
management section. (b) (5)




Recommendation 75: Embassy Berlin should develop and implement service-level goals for
consolidating telephone operations to ensure that the business requirements of the consulates
general are being satisfied. The service goals should assign responsibilities and detail after-hours
support, contingency plans, and familiarization training on consulate general
requirements.(Action: Embassy Berlin)

Consulate General Frankfurt Telephone Network

       Consulate General Frankfurt’s telephone network was overbuilt with needless
redundancies and excessive capabilities. The equipment is distributed in six frame rooms, which
makes maintaining and supporting the telephone equipment problematic. The primary telephone
equipment vendor no longer supports much of the telephone equipment Frankfurt uses.
Consequently, Frankfurt’s telephone staff is unable to receive the necessary training to
troubleshoot the equipment, receive vendor assistance with technical problems, or acquire spare
parts.

        In 2005, when the consulate general moved to the current facility, some of the old
telephone switches from the former U.S. military hospital were retained. In addition, designing
and setting up the telephone rooms and purchasing equipment for the Frankfurt operation seems
to have occurred over a number of years without a strategy. The telephone staff stated that much
of the documentation necessary to understand and support the network was either never prepared
                                               56
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




or never turned over to the staff. These deficiencies have made maintaining and supporting
Frankfurt’s telephone system increasingly problematic.

Recommendation 76: Embassy Berlin, in coordination with the Bureau of Information
Resource Management, should perform an engineering study to establish requirements for
consolidating the multiple telephone rooms and eliminating redundant and non-functioning
telephone equipment. (Action: Embassy Berlin, in coordination with IRM)

         Proper temperature control is a critical component in maintaining the operation of
Consulate General Frankfurt’s telephone system. Several of Frankfurt’s telephone equipment
rooms have large, ceiling-mounted air conditioning units that are outdated and inoperable. Since
it is no longer possible to get spare parts or find qualified technicians to repair the units, the
consulate general has installed several smaller, portable air conditioning units to maintain an
adequate temperature. Without reliable and adequate air conditioning, the telephone equipment
will overheat, resulting in equipment failure.

Recommendation 77: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate and fulfill the climate control requirements of each of Consulate
General Frankfurt’s telephone equipment rooms to ensure proper temperature control. (Action:
Embassy Berlin, in coordination with OBO)

        Uninterruptible power supply systems support the telephone rooms as a backup power
supply in the event of an electrical power outage. Consulate staff is unable to assess whether the
units work, however, due to the age of equipment, the absence of documentation, and the lack of
batteries. Furthermore, telephone personnel cannot safely evaluate the units because of
dangerous voltage/current in the units themselves.

Recommendation 78: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate the condition of the uninterruptible power supply systems, ensure
that they are operational, and schedule regular maintenance. (Action: Embassy Berlin, in
coordination with OBO)

Residential Telephone Landlines

        All U.S. direct-hire employees residing in U.S. Government quarters are required to
maintain and pay for a landline telephone. OIG interviews and survey data show that employees
are unhappy with the residential landline requirement, the related cost, and the service provided.
Mission employees told inspectors that they do not understand why they are required to have and
pay for the landlines and why the service is limited to a specific vendor.

       Informal Recommendation 19: Embassy Berlin should issue a management notice to
       explain the residential telephone policy.

Unclassified Server Room Power Supply Panels

       Power supply panels that supply the unclassified server rooms in the Berlin chancery and
Clayallee facility and at the consulate general in Munich are not labeled to indicate the
equipment served by the panels. Marking power supply panels assists systems staff in isolating
                                                 57
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSFIED




power issues and in systems availability planning. The information management staff was
unaware that the supply panels were not marked.

       Informal Recommendation 20: Embassy Berlin should label the unclassified power
       supply panels in the Berlin chancery and Clayallee facility and at the consulate general in
       Munich to indicate the equipment served by the panels.




                                         58
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSFIED





    Quality of Life
    Equal Employment Opportunity and the Federal Women’s Program

            Mission Germany is neither sufficiently attentive nor proactive in dealing with EEO and
    harassment issues. Mission leadership told the OIG team that 10 EEO and harassment complaints
    had been filed against the mission within the past year, four of which were referred to the Office
    of Civil Rights. The OIG inspectors interviewed several other employees who reported that they
    too had been harassed by supervisors or coworkers but had not filed complaints. Despite the
    formal complaints, the embassy had a gap of 3 months between EEO counselors, no EEO
    material was posted anywhere in Embassy Berlin’s three office buildings or on the mission’s
    SharePoint site, nor was any attempt made to recruit local employee EEO liaisons at the embassy
    or any of the consulates general. Consulate General Frankfurt has an active EEO program, but
    the EEO counselor there was unaware that she was also responsible for the consulates general in
    Munich and Dusseldorf until shortly before this inspection.

            Reports of harassment are most prevalent at Embassy Berlin and Consulate General
    Hamburg. The harassment reported in Berlin most often revolves around gender or sexual
    orientation. Three of the Berlin complaints were referred to the Office of Civil Rights. In
    addition, several employees in different sections told OIG inspectors that actions by their
    supervisors had created a difficult and stressful work environment. In some cases, these actions
    had been reported up the chain of command but were not discussed in the supervisors’ annual
    evaluations. The OIG team left one corrective employee evaluation to correct this specific
    situation.

            The Berlin EEO counselor, who was appointed in September 2010, attempted to provide
    training to embassy staff in fall 2010 but was told by the previous human resources officer that
    training was unnecessary. The DCM directed that training to begin in January 2011. A second
    group of sessions was held in March 2011, with additional training for interns and summer hires
    in May and June 2011. The EEO counselor provided training in person in Berlin and by video
    conference to the four smaller consulates general. The Frankfurt EEO counselor provides
    training to the staff there. While the DCM stated in two mission staff announcements that EEO
    training was mandatory, it appears that less than 50 percent of the mission staff has attended this
    training.
(b) (6)




                                              59
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED





        Mission Germany’s locally employed staff handbook states: “The U.S. Mission is
committed to providing a workplace that is free from sexual and discriminatory harassment…All
U.S. Mission employees, including but not limited to staff, supervisors, and senior officials, are
required to comply with this policy…Employees who have been found to have…discriminatorily
harassed [other employees] will be subject to discipline or other appropriate management
action.” The handbook details potential disciplinary actions, ranging from an oral reprimand to
dismissal for cause.

Recommendation 79: Embassy Berlin should discipline staff who violate the embassy’s anti­
discrimination policies in accordance with the locally employed staff handbook. (Action:
Embassy Berlin)

         As noted, Embassy Berlin did not post EEO-related material in any of its three office
buildings, nor was information available on the mission’s SharePoint site. The management
office posted EEO information in all three embassy buildings only after inspectors raised this
issue. EEO material was posted on the SharePoint site several weeks later, after it was brought
to the attention of the DCM. Embassy Berlin has yet to create a page on its intranet SharePoint
site for EEO and related information. Consulate General Frankfurt has posted a video discussing
EEO issues on its SharePoint site.

        The Office of Civil Rights offered to provide training to Mission Germany in fall 2010,
when it was conducting regional training in Frankfurt. The Berlin human resources officer at the
time declined the offer. The number of complaints filed with the mission’s EEO counselors, as
well as other cases uncovered by the inspectors, demonstrates that this training is needed.

Recommendation 80: Embassy Berlin, in coordination with the Office of Civil Rights, should
request and fund training on Equal Employment Opportunity and harassment issues to be
conducted by the Office of Civil Rights at the embassy and all consulates general. (Action:
Embassy Berlin, in coordination with S/OCR)

        Mission Germany has two American EEO counselors serving a total of 1,616 employees
in the embassy and five consulates general. The management office had proposed two additional
EEO counselors for Embassy Berlin with additional responsibility for the four smaller consulates
general. The Office of Civil Rights approved these appointments during this inspection. The
EEO duties are performed in addition to the counselors’ regular work, which limits the amount
of time they have to visit the consulates general, counsel employees, and provide information.
Recruiting local employee EEO liaisons at each of the consulates general and the three embassy
sites would provide mission staff with better access to information and assistance. The
Department strongly encourages but does not require missions to have local employee EEO
liaisons. The DCM, at a missionwide town hall meeting during this inspection, stated that they
were seeking volunteers to serve as local employee EEO liaisons. Appointing and training a
sufficient number of local employee liaisons would help to send the message that Mission
Germany takes EEO-related issues seriously.


                                         60
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




       Informal Recommendation 21: Embassy Berlin should recruit, appoint, and train local
       employee Equal Employment Opportunity liaisons, using the materials on the Office of
       Civil Rights Web site, at all consulates general and the three embassy buildings.

        Despite attempts from management, the embassy’s Federal Women’s Program has been
inactive. Although management suggested several ways to help the coordinator publicize the
program, they were never completed. The current coordinator is departing Berlin in summer
2011. The embassy is seeking a replacement.

Community Liaison Office

Embassy Berlin

        Inspectors received numerous complaints about the community liaison office (CLO) in
Berlin, including a poor sponsorship program for incoming employees, lack of programs and
events, and poor support for embassy families. Berlin is an international and cosmopolitan city,
but English is not as widely spoken as in other major European cities, and inspectors were told
that adapting to life here can be difficult. The ICASS customer satisfaction scores for CLO are
below bureau and worldwide averages and significantly lower than in the past 3 years.

        Embassy Berlin has two co-CLO coordinators with offices in the chancery and Clayallee.
Due to budget issues, the hours of the co-CLO coordinators have been cut from 30 to 16 hours
each, for a total of 32 hours per week. Embassy management has proposed staffing each office 2
days a week. The current co-CLO coordinators, both of whom left during this inspection,
objected to this proposal, as it did not allow any time during which the two co-CLO coordinators
would be in the office at the same time. Without an overlap of even a few hours, it will be
extremely difficult for them to coordinate activities and ensure that the office runs efficiently.

        The incumbent meets regularly with the DCM, both to keep him informed about
community morale and to alert him to any possible issues involving divorce, abuse, or mental
health concerns that would require his attention as the family advocacy officer. The CLO
meetings with the DCM are attended by a member of the embassy management team; however,
in accordance with 3 FAM 1812.3-5, the family advocacy team, which is responsible for
coordinating and reporting family advocacy issues, is composed of the family advocacy officer,
Foreign Service medical officer, and the regional security officer. The regulations specify that
other persons may be included on a case-by-case basis at the discretion of the family advocacy
officer following consultation with those officers.

Recommendation 81: Embassy Berlin should require that meetings between the community
liaison officer and the deputy chief of mission, to discuss family advocacy issues, be held in
accordance with Department regulations. (Action: Embassy Berlin)

       The CLO staff had planned to do a survey to determine the needs of the mission
community in 2010. Instead, a short survey asking what could be done better was handed out to
newcomers. It did not provide the type of information the CLO felt was needed. With regular
turnover in staff, surveys of community needs done after the summer transfer season ends are an
important tool for improving office operations.

                                         61
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED



       Informal Recommendation 22: Embassy Berlin should do a survey of the embassy
       community to be used in planning how the community liaison office can best meet the
       needs of the embassy community.

Consulate General Frankfurt

        Due to its status as a regional hub, Consulate General Frankfurt’s employee community is
different than that of Embassy Berlin. Frankfurt has a large percentage of employees who are
overseas for the first time or for whom this will be their only overseas tour. A number of
employees spend up to 60 percent of their time traveling. These factors make the Frankfurt CLO
a key player in consulate general operations. Its 2011 ICASS customer satisfaction scores are
higher than both the bureau and worldwide averages and significantly higher than any time in the
past 5 years. All three members of the CLO staff reported that they receive good support from
the consulate general front office and management section.

       Consulate General Frankfurt has one full-time community liaison officer and two part-
time assistants who each work 20 hours per week. One assistant is scheduled to leave in summer
2011. Budget concerns make it uncertain whether the position will be filled.

Commissary and Recreational Association

Berlin Community Support Association

       The Berlin Community Support Association, located in the Clayallee annex, has
produced a profit in only one of the past 10 years. The cumulative net loss for the past decade is
$578,000. The association remains an ongoing concern solely due to interest income generated
from a $2.2 million investment from the liquidation of association assets when the embassy
moved from Bonn to Berlin. Even with this income, the cumulative net loss is $141,000. The
DCM has given the association a deadline of January 2012 to break even.

         The board of directors and the current supervisory general services officer have taken
steps to increase income. They have downsized to a store with a sandwich counter, catering, a
library, a visa photo machine, vehicle rentals, and Armed Forces Network cable TV service. The
new general manager has improved operations and doubled store sales in the past 6 months, but
this still is not enough to make the association profitable given the high labor costs of the
association’s five employees. The general manager believes that selling logo items at the
chancery—where approximately 80 percent of the U.S. direct-hire employees and most of the
temporary duty staff work—would be a profitable venture. Management declined her request
because the business plan was not sound.

        There is tension among the board of directors, management, and the association staff
because of the association’s financial state. The inspectors counseled management and the board
of directors to contact other embassies for ideas on how to make the association profitable. For
example, the association does not charge membership dues like most associations.

        In January 2011, the Office of Commissary and Recreational Affairs conducted a detailed
review of operations. Their report identified 31 operational and financial deficiencies. The board
of directors, in conjunction with the general manager, have started to review and resolve
                                                 62
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




identified deficiencies. The commissary and recreation staff has given them until the end of 2011
to correct all deficiencies.

Frankfurt Community Support Association

         The Frankfurt Community Support Association is separate from the Berlin association.
Unlike Berlin, the Frankfurt association has been profitable. The association conducts its
business activities at two locations. At the Siedlung housing compound, business activities
include a cafeteria and bar, fitness center, childcare, and quick shop with movie rentals. Business
activities at the consulate general compound include a hotel for official visitors, retail shop, visa
photo machine, gift shop, shuttle service, and barber. The Frankfurt association has a staff of 61.
From 2007 through 2009, the association realized a profit. In 2010, it lost $86,000 due to
renovation costs and hotel cancellations related to the volcanic eruption in Iceland. The general
manager expects to realize a profit in 2011.

       In December 2010, the Office of Commissary and Recreational Affairs reviewed
operations and identified 10 management control deficiencies. The association has addressed
most of these deficiencies.

Overseas Schools

         The schools available to the mission’s dependent children are adequate, with parents in
Berlin, Frankfurt, and Munich having more choices than those at the smaller consulates general.
In fact, mission children in Frankfurt attend five different schools. Special needs access, which is
the single largest issue for the Office of Overseas Schools, can be problematic, though most
German schools will accommodate mild or moderate cases. Additional options for special needs
children exist in Frankfurt and Berlin.
       (b)(5)(b)(6)
                                charges a capital assessment fee of 5,500 euros to students for
each of their first and second years (total of 11,000 euros), but none for the third year and
beyond.. Assuming each child attends at least 2 years, an exchange rate of US $ 1.45= 1 euro,
and if the number of students is unchanged (b)(5) the fees would total $2,360,600. Most
                                              (b)(6)
consulate children attend for no more than 3 years, while German students often attend for their
entire school career. The transient nature of U.S. Government-sponsored students translates into
higher turnover and higher capital fees compared to longer-term students. A consulate employee,
who is a member of the school board, estimates that consulate students comprise about 16
percent of the total school population but contribute about 30 percent of the capital assessment
fees.

Recommendation 82: Embassy Berlin, in coordination with the Office of Overseas Schools,
should request and attempt to negotiate relief from disproportionate U.S. Government payments
of (b)(5)(b)(6)                  capital assessment fees. (Action: Embassy Berlin, in
coordination with A)




                                          63
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Health Unit

Embassy Berlin

        The Embassy Berlin health unit is led by an experienced Foreign Service nurse
practitioner and staffed by two nurses and an administrative assistant. The unit is supported by
the regional medical office in Consulate General Frankfurt. Records are well-maintained and up­
to-date and medicines are properly stored and accounted for. While ICASS customer service
scores dropped in 2011 and are now below bureau and worldwide averages, inspectors heard few
complaints about the services they provide. Medical services in Germany are generally excellent.

         The health unit operates out of offices in both the chancery and the Clayallee annex
which are open on different days. Because the Office of Medical Services has yet to develop and
implement an online system for keeping medical records, all patient information is maintained in
paper files. The staff organizes the files so that they are kept at the location the patient most often
uses. For instance, files for embassy families may be kept at Clayallee, near where most families
live. As employees and families can visit either location, they may be seen at one location while
their files are across town. In addition, while both offices have a stock of medicines, vaccines are
kept in the chancery as the unit only has one refrigerator in which to store them. The staff has
developed procedures to mitigate these problems, but they are not entirely successful. The staff is
looking forward to the day when the Office of Medical Services releases an electronic medical
record system.

Consulate General Frankfurt

        Frankfurt hosts the regional medical office that supports Germany and seven other
European missions, as well as Consulate General Frankfurt. The office has a staff of 10,
including the regional medical officer, psychiatrist, and technologist. ICASS customer service
scores have been above bureau and worldwide averages for several years. Inspectors received
few complaints about the service the office provides.

        The unit’s records are well-maintained and up-to-date. Medicines are properly stored and
accounted for. The staff in charge of ordering supplies also keeps detailed records. However, the
individual ordering the supplies does not have a government-issued purchase card and uses the
one issued to the administrative assistant. According to guidance in the Department’s Worldwide
Purchase Card Program Manual, only the person to whom the purchase card is issued can use it.
The medical staff was unaware of this prohibition and immediately changed their procedures to
become compliant.




                                           64
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED





Management Controls

         Internal controls in the mission’s management sections are generally sound. The sections
strive to separate duties as much as possible, but it is a challenge to do so at the smaller
consulates general. The 2010 Mission Statement of Assurance on management controls did not
report any vulnerabilities or deficiencies. Notwithstanding the overall good condition of
management controls, the OIG team found some areas for improvement.

        The receiving point in Berlin serves as the designated billing office for most procurement
actions. This setup is contrary to the requirement that the financial management office serve in
this capacity. It also weakens internal controls by consolidating functions that should be
separated.

Recommendation 83: Embassy Berlin’s financial management office should assume the role
and responsibilities of the embassy’s designated billing office. (Action: Embassy Berlin)

       The Frankfurt travel and visitor unit sometimes provide cash per diem payments to
congressional delegations, often when they are transiting Frankfurt. (b) (5)




Recommendation 84: (b) (5)



        At Consulates General Dusseldorf and Leipzig, the local employees who report time and
attendance for all consulate employees also report it for themselves. This is a management
control weakness as it provides no oversight for the time and attendance records of these
employees. The inspectors were unable to determine if this situation exists in other consulates
general or in the embassy.

       Informal Recommendation 23: Embassy Berlin should revise its procedures to ensure
       that the mission timekeepers do not report their own time and attendance.

        Management controls on vehicle refueling are noteworthy. The mission takes advantage
of safeguards built into the Army and Air Force Exchange Service program with a private
company, which the embassy and consulates general use for both government-owned and
privately-owned vehicles. The process calls for the filling station clerk to check the credit card
against the license plate of the vehicle and insert the card into the reader. The driver must input a
personal identification number, the odometer reading, and the vehicle license plate number. The
driver also gets a receipt from the station, which he gives to the dispatcher for input into the
vehicle database and reconciliation with the monthly invoice.


                                          65
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Grants Management

        The public affairs section manages all of the $1.2 million in grants issued by the mission.
Embassy Berlin has three officers with grants warrants and four local employees who provide
grants management support. Three of the consulates general have public affairs officers with
grants warrants, while each consulate general has a public affairs local employee who handles
grants management support. The staff involved in grants management are well-trained and all
files complete and well-documented.

       Some local staff complained that they have to do as much work for small grants of a few
hundred dollars as for those over $10,000. The consulate staff handling grants management was
unaware of fixed obligation grants, which are described in Grants Policy Directive 35 of the
Office of the Procurement Executive. The fixed obligation grants agreement is less complicated
and the closeout requirements less cumbersome; a memorandum from the grants officer
representative can serve as the closeout documentation.

       Informal Recommendation 24: Embassy Berlin should review the merits of using fixed
       obligation grants in at least some of smaller grants awards and provide guidance to the
       grants staff.

Consular Management Controls

        Apart from the issue of ensuring oversight of consular management controls in the small
American citizens services operation in Consulate General Leipzig (discussed in the Consular
Affairs section of this report), the OIG team did not find any significant consular management
control issues.




                                          66
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSFIED





List of Recommendations

Recommendation 1: Embassy Berlin should establish and implement a schedule of regular
visits by the deputy chief of mission and embassy section chiefs to the consulates general.
(Action: Embassy Berlin)

Recommendation 2: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should downsize Consulate General
Dusseldorf with a view toward reducing annual operating expenses by $1 million. (Action:
Embassy Berlin, in coordination with EUR and DGHR)

Recommendation 3: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should substantially downsize Consulate
General Hamburg with a view toward achieving savings of $2 million annually in operating
expenses. (Action: Embassy Berlin, in coordination with EUR and DGHR)

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin and the Bureau of European and Eurasian Affairs, should sell the U.S.
Government-owned consulate general offices in Hamburg and lease office space for Consulate
General Hamburg. (Action: OBO, in coordination with Embassy Berlin and EUR)

Recommendation 5: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Berlin and the Under Secretary for Management, should develop and implement a plan
to close Consulate General Leipzig at the earliest practical opportunity. (Action: EUR, in
coordination with Embassy Berlin and M/PRI)

Recommendation 6: Embassy Berlin should prepare a written plan outlining how it will
provide management support and reporting and public affairs coverage when Consulate General
Leipzig is closed and Consulates General Dusseldorf and Hamburg are downsized. (Action:
Embassy Berlin)

Recommendation 7: Embassy Berlin, in coordination with the Bureau of Human Resources,
should eliminate position 10073002, FP-06, office management specialist when the incumbent’s
tour is completed in 2013. (Action: Embassy Berlin, in coordination with DGHR).

Recommendation 8: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should abolish information management
officer position number 55233001 in Consulate General Frankfurt and realign the information
management staffing in Frankfurt. (Action: Embassy Berlin, in coordination with EUR and
DGHR)

Recommendation 9: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should reprogram or eliminate, upon the
departure of the incumbent, the FS-01 financial management officer position in Consulate
General Frankfurt. (Action: Embassy Berlin, in coordination with EUR and DGHR)

Recommendation 10: The Bureau of Consular Affairs, in coordination with the Bureau of
European and Eurasian Affairs and the Bureau of Human Resources, should eliminate two mid­

                                        67
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




level consular officer positions from the consular section in Frankfurt and create a plan for how
the grade levels of the remaining positions should be realigned. (Action: CA, in coordination
with EUR and DGHR)

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate an entry-level officer position from the consular section in
Frankfurt. (Action: CA, in coordination with DGHR)

Recommendation 12: The Bureau of International Information Programs, in coordination with
the Bureau of European and Eurasian Affairs and the Bureau of Human Resources, should
review and transfer the information resource officer position in Berlin to another embassy where
a realigned country support portfolio would be a better use of that position. (Action: IIP, in
coordination with EUR and DGHR)

Recommendation 13: Embassy Berlin should revise and implement its professional
development program for first- and second-tour personnel with a view toward creating a more
systematic program and increasing participation by officers and specialists who work outside the
chancery and at the consulates general. (Action: Embassy Berlin)

Recommendation 14: Embassy Berlin should reorganize the political section into three
coherent units: internal, external, and political-military, and assign the deputy political counselor
to head one of them. (Action: Embassy Berlin)

Recommendation 15: Embassy Berlin should name an officer to coordinate missionwide
political reporting and require that officer to hold monthly strategy sessions that include officers
and staff from the consulates general. (Action: Embassy Berlin)

Recommendation 16: Embassy Berlin should centralize Internet Web site management at the
embassy, with the constituent posts providing content but with a central webmaster unit being
responsible for the technical proficiency of the content management system and servicing
multiple Web sites. (Action: Embassy Berlin)

Recommendation 17: Embassy Berlin should require security and public diplomacy officers
to prepare a joint report on steps that could be taken to facilitate holding public diplomacy
programs at the embassy and constituent posts. (Action: Embassy Berlin)

Recommendation 18: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should provide sufficient funding to enable the minister-counselor for consular affairs to visit
Consulates General Frankfurt and Munich four times per year for several days at a time on each
visit. (Action: CA, in coordination with Embassy Berlin)

Recommendation 19: Embassy Berlin should schedule monthly videoconferences to
coordinate consular operations and promote standardized operations in Mission Germany.
(Action: Embassy Berlin)

Recommendation 20: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should organize and fund a countrywide consular conference on an annual basis. (Action:
Embassy Berlin, in coordination with CA)

                                          68
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




Recommendation 21: Embassy Berlin should direct the assistant regional security officer-
investigator in Consulate General Frankfurt to create a plan for quarterly visits to Berlin and
Munich to establish working relationships and promote understanding of the function. (Action:
Embassy Berlin)

Recommendation 22: Embassy Berlin should direct the assistant regional security officer-
investigator in Consulate General Frankfurt and the relevant fraud prevention staff to conduct
fraud prevention training at least once per year in Berlin, Frankfurt, and Munich. (Action:
Embassy Berlin)

Recommendation 23: Embassy Berlin should issue standard operating procedures specifying
the responsibilities of the duty officers in Hamburg, Dusseldorf, and Leipzig to respond to
requests for emergency services by American citizens. (Action: Embassy Berlin)

Recommendation 24: Embassy Berlin should develop a comprehensive plan for consular
employees in Berlin, Frankfurt, and Munich to include visits to German state officials and
institutions in combination with prison visits and outreach programs. (Action: Embassy Berlin)

Recommendation 25: Embassy Berlin should allocate sufficient travel funds to consular
sections to allow for travel, including extended trips, to visit American citizen prisoners as
prescribed by Department regulations. (Action: Embassy Berlin)

Recommendation 26: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should close the small consular operation in Consulate General Leipzig. (Action: Embassy
Berlin, in coordination with CA)

Recommendation 27: Embassy Berlin should assign a consular employee as a media
coordinator and create a missionwide consular media program, with regular input from all
consular sections in Mission Germany. (Action: Embassy Berlin)

Recommendation 28: Embassy Berlin should provide personal digital assistants for employees
in the American citizens services units of the consular sections and for the managers of those
sections in Berlin, Frankfurt, and Munich. (Action: Embassy Berlin)

Recommendation 29: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin, should fund and replace the interview windows
in the nonimmigrant visa unit in Berlin. (Action: OBO, in coordination with CA and Embassy
Berlin)

Recommendation 30: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should fund and install a new, modern microphone system for the nonimmigrant visa unit in
Berlin. (Action: Embassy Berlin, in coordination with CA)

Recommendation 31: Embassy Berlin should provide guidance to consular managers in Berlin
to ensure that job vacancy announcements for locally-hired positions properly reflect the
language requirements of those jobs. (Action: Embassy Berlin)

Recommendation 32: Embassy Berlin should coordinate with Consulate General Frankfurt to
create a new roster system for “designated control officers” that includes all employees who
                                          69
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED




serve as duty officers. Alternatively, Embassy Berlin should create and fund an eligible family
member position to perform this duty. (Action: Embassy Berlin)

Recommendation 33: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should make the passport pilot program in Germany permanent and consider expanding it to
other posts with significant military passport workloads. (Action: CA, in coordination with
Embassy Berlin)

Recommendation 34: Embassy Berlin, in coordination with the Bureau of Consular Affairs
and the Bureau of Diplomatic Security, should require the consular section and regional security
office in Frankfurt to produce standard operating procedures for the fraud prevention unit in the
consular section and the assistant regional security officer-investigator. (Action: Embassy Berlin,
in coordination with CA)

Recommendation 35: Embassy Berlin should require that the consular managers in Consulate
General Frankfurt work out an appointment schedule on busy days that will allow consular
officers to take their lunch breaks at normal times. (Action: Embassy Berlin)

Recommendation 36: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin, should fund and construct two additional
consular windows in the consular section in Munich. (Action: OBO, in coordination with CA and
Embassy Berlin)

Recommendation 37: Embassy Berlin should develop and implement a program to mentor
and support officers with management responsibility in Consulates General Dusseldorf,
Hamburg, and Leipzig. (Action: Embassy Berlin)

Recommendation 38: The Office of Medical Services, in coordination with the Bureau of
Resource Management, the Office of the Legal Advisor, and Embassy Berlin, should issue
standard operating procedures on the handling and protection of medical documents. (Action:
MED, in coordination with the RM, L, and Embassy Berlin)

Recommendation 39: Embassy Berlin should conduct a management review of cashiering
operations to determine whether cashiering services can be reduced and whether outsourcing
accommodation exchange and using automated teller machines would be beneficial and cost
effective. (Action: Embassy Berlin)

Recommendation 40: Embassy Berlin should establish and enforce procedures that will
provide timely completion of performance evaluations for all locally employed staff, including
holding supervisors formally accountable for this responsibility in their work requirements and
evaluations. (Action: Embassy Berlin)

Recommendation 41: Embassy Berlin should complete its missionwide review of all local
staff position descriptions, revise those that are inaccurate, and reclassify the affected positions.
(Action: Embassy Berlin)

Recommendation 42: Embassy Berlin, in coordination with the Bureau of Human Resources,
should update its locally employed staff handbook to reflect current conditions of employment,

                                           70
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




ethical standards, and disciplinary processes, including terminations, by January 1, 2012.
(Action: Embassy Berlin, in coordination with DGHR)

Recommendation 43: Embassy Berlin should develop and implement a regular schedule of
visits by human resources staff to Consulates General Dusseldorf, Hamburg, Leipzig, and
Munich. (Action: Embassy Berlin)

Recommendation 44: Embassy Berlin should modify a human resources assistant position in
Berlin and another in Frankfurt to include global employment advisor responsibilities. (Action
Embassy Berlin)

Recommendation 45: Embassy Berlin should follow the same guidelines for preparing,
tracking, and sending reminder notices for eligible family member evaluations as for locally
employed staff. (Action: Embassy Berlin)

Recommendation 46: The Bureau of Human Resources should issue policy guidance and
standard operating procedures to Embassy Berlin for performance management of eligible family
members. (Action: DGHR)

Recommendation 47: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs, should request an exception for eligible family members in Germany to
Department regulations limiting cost-of-living allowances to Foreign Service officers. (Action:
Embassy Berlin, in coordination with EUR)

Recommendation 48: Embassy Berlin, in coordination with the Bureau of Human Resources,
the Bureau of Resource Management, and the Office of the Legal Adviser, should issue an
authoritative ruling on whether it is possible to provide the employer portion of mandatory
medical insurance in a way that distinguishes it from salary income. (Embassy Berlin, in
coordination with DGHR, RM, and L)

Recommendation 49: Embassy Berlin should follow Department regulations regarding the
payment of premium compensation to eligible specialists and entry-level officers and should
issue a management notice to that effect. (Embassy Berlin)

Recommendation 50: Embassy Berlin should develop and implement a plan that requires
Consulate General Frankfurt employees to sign residential inventories in a timely manner.
(Action: Embassy Berlin)

Recommendation 51: Embassy Berlin should implement a plan that provides the Consulate
General Frankfurt receiving clerk with access to procurement data that enables proper receiving
of goods and services. (Action: Embassy Berlin)

Recommendation 52: Embassy Berlin should develop and implement a plan to provide
assistance to the smaller consulates general to ensure that inventories are recorded and reconciled
by different mission staff members. (Action: Embassy Berlin)

Recommendation 53: Embassy Berlin should develop and implement a procedure so that the
procurement office is notified of final payments in order to properly close out purchase orders.
(Action: Embassy Berlin)
                                          71
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Recommendation 54: Embassy Berlin should develop and implement a plan to ensure
missionwide adherence to the Department’s limit of 10 hours for a driver’s daily tour of duty.
(Action: Embassy Berlin)

Recommendation 55: Embassy Berlin should update and publish its vehicle policy
memorandum. (Action: Embassy Berlin)

Recommendation 56: Embassy Berlin should require Consulate General Frankfurt to store its
expendable automotive parts and supplies securely to prevent theft. (Action: Embassy Berlin)

Recommendation 57: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin, should provide the embassy with complete and accurate as-built drawings of the
chancery building. (Action: OBO, in coordination with Embassy Berlin)

Recommendation 58: Embassy Berlin should design and adopt means to facilitate greater
workspace privacy, particularly for the human resources office. (Action: Embassy Berlin)

Recommendation 59: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should develop and implement a plan to convert the top floor of the Clayallee
building into the Marine security guard detachment quarters. (Action: Embassy Berlin, in
coordination with OBO)

Recommendation 60: Embassy Berlin should implement the Department’s Motor Vehicle
Safety Management Program, to include Smith System driver training and monitoring all driver
qualifications, throughout the mission. (Action: Embassy Berlin)

Recommendation 61: Embassy Berlin should implement a plan to monitor traffic violations
committed by employees and to administer appropriate training and corrective action to repeat
offenders. (Action: Embassy Berlin)

Recommendation 62: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should bring the Consulate General Frankfurt American citizen services waiting
room into compliance with fire egress standards. (Action: Embassy Berlin, in coordination with
OBO)

Recommendation 63: Embassy Berlin should create and implement a detailed plan to provide
information management support to Consulate General Hamburg from Berlin, including how the
embassy will support routine services as well as emergencies. (Action: Embassy Berlin)

Recommendation 64: Embassy Berlin should create and implement standard operating
procedures for formal information management consultations and operational review visits by
Embassy Berlin and Consulate General Frankfurt personnel to Consulates General Leipzig and
Dusseldorf. (Action: Embassy Berlin)

Recommendation 65: Embassy Berlin should develop information technology training plans
for the locally employed computer operators at Consulates General Leipzig and Dusseldorf.
(Action: Embassy Berlin)



                                         72
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED



Recommendation 66: Embassy Berlin should develop, document, and implement a system
development life cycle process for locally developed applications. (Action: Embassy Berlin)

Recommendation 67: Embassy Berlin should create and implement a standard operating
procedure for software developer contractor oversight and systems access control. (Action:
Embassy Berlin)

Recommendation 68: (b) (5)



Recommendation 69: (b) (5)




Recommendation 70: Embassy Berlin should establish and implement standard operating
procedures for the local information technology change control board and define the roles and
responsibilities of the consulates general. (Action: Embassy Berlin)

Recommendation 71: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Information Resource Management, should develop and
implement a service-level agreement with the regionalization program owners. The agreement
should outline expected services, resources, and cost centers to support regionalization programs.
(Action: Embassy Berlin, in coordination with EUR and IRM)

Recommendation 72: (b) (5)




Recommendation 73: (b) (5)


Recommendation 74: (b) (5)



Recommendation 75: Embassy Berlin should develop and implement service-level goals for
consolidating telephone operations to ensure that the business requirements of the consulates
general are being satisfied. The service goals should assign responsibilities and detail after-hours
support, contingency plans, and familiarization training on consulate general
requirements.(Action: Embassy Berlin)

Recommendation 76: Embassy Berlin, in coordination with the Bureau of Information
Resource Management, should perform an engineering study to establish requirements for
consolidating the multiple telephone rooms and eliminating redundant and non-functioning
telephone equipment. (Action: Embassy Berlin, in coordination with IRM)
                                          73
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSFIED




Recommendation 77: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate and fulfill the climate control requirements of each of Consulate
General Frankfurt’s telephone equipment rooms to ensure proper temperature control. (Action:
Embassy Berlin, in coordination with OBO)

Recommendation 78: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate the condition of the uninterruptible power supply systems, ensure
that they are operational, and schedule regular maintenance. (Action: Embassy Berlin, in
coordination with OBO)

Recommendation 79: Embassy Berlin should discipline staff who violate the embassy’s anti­
discrimination policies in accordance with the locally employed staff handbook. (Action:
Embassy Berlin)

Recommendation 80: Embassy Berlin, in coordination with the Office of Civil Rights, should
request and fund training, on Equal Employment Opportunity and harassment issues to be
conducted by the Office of Civil Rights at the embassy and all consulates general. (Action:
Embassy Berlin, in coordination with S/OCR)

Recommendation 81: Embassy Berlin should require that meetings between the community
liaison officer and the deputy chief of mission, to discuss family advocacy issues, be held in
accordance with Department regulations. (Action: Embassy Berlin)

Recommendation 82: Embassy Berlin, in coordination with the Office of Overseas Schools,
should request and attempt to negotiate relief from disproportionate U.S. Government payments
of(b)(5)(b)(6)                   capital assessment fees. (Action: Embassy Berlin, in
coordination with A)

Recommendation 83: Embassy Berlin’s financial management office should assume the role
and responsibilities of the embassy’s designated billing office. (Action: Embassy Berlin)

Recommendation 84: (b) (5)




                                         74
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSFIED





List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Berlin should review the political section’s
subscription expenses with a view toward reducing them by at least 50 percent.

Informal Recommendation 2: Embassy Berlin should require that the Ambassador meet
regularly with the staffs of the economic, global affairs, and political sections to discuss strategy
and provide guidance. Representatives from the Department of Defense, the Foreign Commercial
Service, and other agencies should be invited to participate as appropriate.

Informal Recommendation 3: Embassy Berlin should review how daily political and
economic “squib” reports are produced with a view toward simplifying the process and
encouraging input from constituent posts.

Informal Recommendation 4: Embassy Berlin should take greater care to assure that the
Germany desk in the Department is copied on all relevant email messages.

Informal Recommendation 5: Embassy Berlin should initiate an in-house English writing
program to assist local staff members who need to improve their writing skills and/or provide
them adequate time to take online writing courses offered by the Foreign Service Institute.

Informal Recommendation 6: Embassy Berlin should require that the Ambassador’s staff
assistant review, with relevant section heads or their representatives, the requests for speaking
engagements by the Ambassador with an eye toward maintaining a balance that fits well within
the mainstream of thematic and audience targets, as set forth in the Mission Strategic and
Resource Plan.

Informal Recommendation 7: Embassy Berlin should coordinate with Consulate General
Frankfurt to report on the consulate general’s visa appointment program to the Bureau of
Consular Affairs for possible development and broader use.

Informal Recommendation 8: Embassy Berlin should review the position description for the
Class B cashier’s position in Consulate General Munich, revise any inaccuracies, and reclassify
the position.

Informal Recommendation 9: Embassy Berlin should include in its new employee orientation
a session on frequently asked personnel questions and answers and post these on the mission’s
human resources intranet site.

Informal Recommendation 10: Embassy Berlin should include customer service as an element
in human resources staff position descriptions and performance evaluations.


                                          75
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Informal Recommendation 11: Embassy Berlin should review the requirements for Consulate
General Frankfurt’s unfilled professional associate position as well as the language requirement
listed in the position description to ensure that it is accurate.

Informal Recommendation 12: Embassy Berlin should request a blanket waiver from the
Bureau of Overseas Buildings Operations pertaining to the disputes resolution clause of the
residential model lease.

Informal Recommendation 13: Embassy Berlin should require Consulate General Munich to
document the proceedings of its interagency housing board meetings in written records.

Informal Recommendation 14: Embassy Berlin should include a full and written explanation
for the contract file for sole source acquisitions of commercial items per the Overseas
Contracting and Simplified Acquisition Guidebook.

Informal Recommendation 15: Embassy Berlin should use the International Cooperative
Administrative Support Services Service Center’s mechanism for processing furniture pool
collections and reallotting them to the constituent posts’ International Cooperative
Administrative Support Services allotment as a means to increase transparency, rationalize
furniture purchases, and reduce warehousing.

Informal Recommendation 16: Embassy Berlin should require Consulate General Frankfurt to
complete trip tickets for motor pool trips, including passenger signatures where appropriate.

Informal Recommendation 17: Embassy Berlin should disseminate to its staff the latest
information on assessment of drinking water quality and efforts to address heating, ventilation,
and air conditioning deficiencies.

Informal Recommendation 18: (b) (5)


Informal Recommendation 19: Embassy Berlin should issue a management notice to explain
the residential telephone policy.

Informal Recommendation 20: Embassy Berlin should label the unclassified power supply
panels in the Berlin chancery and Clayallee facility and at the consulate general in Munich to
indicate the equipment served by the panels.

Informal Recommendation 21: Embassy Berlin should recruit, appoint, and train local
employee Equal Employment Opportunity liaisons, using the materials on the Office of Civil
Rights Web site, at all consulates general and the three embassy buildings.

Informal Recommendation 22: Embassy Berlin should do a survey of the embassy community
to be used in planning how the community liaison office can best meet the needs of the embassy
community.

Informal Recommendation 23: Embassy Berlin should revise its procedures to ensure that the
mission timekeepers do not report their own time and attendance.


                                         76
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSFIED




Informal Recommendation 24: Embassy Berlin should review the merits of using fixed
obligation grants in at least some of smaller grant awards and provide guidance to the grants
staff.




                                         77
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSFIED




Principal Officials
                                                               Name                  Arrival Date
Ambassador                                        Philip D. Murphy                     08/2009
Deputy Chief of Mission                           Greg Delawie                         08/2009
Consulates General
  Dusseldorf                                      Janice G. Weiner                     08/2009
  Frankfurt                                       Edward M. Alford                     08/2009
  Hamburg                                         Inmi K. Patterson                    09/2010
  Leipzig                                         Katherine A. Brucker                 08/2008
  Munich                                          Conrad R. Tribble                    08/2009
Chiefs of Sections (Berlin):
  Management                                      Kaara N. Ettesvold                   07/2009
  Consular                                        Karen L. Christensen (incoming)      07/2011
  Political                                       George A. Glass                      08/2009
  Economic                                        Seth D. Winnick                      08/2010
  Public Affairs                                  Bruce Armstrong                      07/2008
  Regional Security                               Robert D. Barton                     06/2010
Other Agencies:                                                                        08/2009
  Department of Homeland Security,
  Transportation Security Administration          Jesus S. Presas (Berlin)             06/2010
  Department of Homeland Security, U.S.
  Immigration and Customs Enforcement             Ronald Grimes (Frankfurt)            04/2007
  Department of Homeland Security, U.S. Secret
  Service                                         Douglas Leidwinger (Frankfurt)       03/2009
  Department of Homeland Security, U.S.
  Citizenship and Immigration Services            Kristina Carty-Pratt (Frankfurt)     05/2008
  Department of Homeland Security, U.S.
  Customs and Border Protection                   Douglas Fitzpatrick (Frankfurt)      03/2007
  Department of Justice, Drug Enforcement
  Administration                                  Michael Barbuti (Frankfurt)          08/2008
  Department of Justice, Legal Attaché Office     Stuart Wirtz (Berlin)                08/2009
  Broadcasting Board of Governors                 Michael Hardegen (Frankfurt)         08/2007
  General Services Administration                 Thomas Meiron (Frankfurt)            03/2010
  Joint Verification Support Center               Theodore Clark (Frankfurt)           08/2009
  Regional Support Center                         Michael Tulley (Frankfurt)           08/2010
  Regional Procurement and Support Office         Raymond Bouford (Frankfurt)          08/2007
  Regional Information Management Center          Russell LeClair Jr. (Frankfurt)      09/2009
  Engineering Service Center                      Steve Romero (Frankfurt)             08/2010
  Foreign Agricultural Service                    Paul Spencer-MacGregor (Berlin)      08/2010
  Department of Defense, Defense Attaché Office   Col. James Brown (Berlin)            12/2009
  Department of Defense, Office of Defense
  Cooperation                                     Chris Charveron, Acting (Berlin)     02/2010
  Department of Defense, US Army International
  Technology Center                               Allen Stephan (Frankfurt)            07/2008

                                       78
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSFIED




Foreign Commercial Service                       John Fogarasi (Berlin)         09/2010
Regional Diplomatic Courier Office               Troy Lindquist (Frankfurt)     06/2008
Bureau of Overseas Buildings Operations          John Whitney                   06/2009
Department of Treasury, Office of Technical                                     11/2009
Assistance                                       Gail Ostler (Frankfurt)
Department of Treasury, Internal Revenue                                        09/2007
Service                                          Barbara Franklin (Frankfurt)
Department of Treasury, Internal Revenue                                        04/2009
Service Investigations                           John Leahy Jr. (Frankfurt)
Department of Transportation, Federal Aviation                                  08/2008
Administration                                   John Benning (Frankfurt)




                                     79
                         SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSFIED




Abbreviations
CLO         Community liaison office
DCM         Deputy chief of mission
EEO         Equal Employment Opportunity
EFM         Eligible family member
ICASS       International Cooperative Administrative Support Services
ILMS        Integrated Logistics Management System
NSDD-38     National Security Decision Directive-38
OBO         Bureau of Overseas Buildings Operations
SDLC        System development life cycle




                              80
                  SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSFIED
   SENSITIVE BUT UNCLASSIFIED





FRAUD, WASTE, ABUSE,

OR MISMANAGEMENT

of Federal programs hurts everyone.



           Contact the

   Office of Inspector General

          HOTLINE

to report illegal or wasteful activities:

             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov



      Office of Inspector General

       U.S. Department of State

            P.O. Box 9778

         Arlington, VA 22219




   Cables to the Inspector General

  should be slugged “OIG Channel”

      to ensure confidentiality.





   SENSITIVE BUT UNCLASSIFIED

